<html>
<title> - TSA'S SPOT PROGRAM AND INITIAL LESSONS FROM THE LAX SHOOTING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



      TSA'S SPOT PROGRAM AND INITIAL LESSONS FROM THE LAX SHOOTING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2013

                               __________

                           Serial No. 113-43

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE

87-373 PDF                WASHINGTON : 2014
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, 
Washington, DC 20402-0001


















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                Richard Hudson, North Carolina, Chairman
Mike Rogers, Alabama, Vice Chair     Cedric L. Richmond, Louisiana
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Susan W. Brooks, Indiana             Eric Swalwell, California
Mark Sanford, South Carolina         Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Amanda Parikh, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
         Brian Turbyfill, Minority Subcommittee Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................    11
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Prepared Statement.............................................    18
The Honorable Maxine Waters, a Representative in Congress From 
  the State of California:
  Oral Statement.................................................     4

                               Witnesses

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Daniel M. Gerstein, Deputy Under Secretary, Science and 
  Technology Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27
Mr. Stephen M. Lord, Managing Director, Forensic Audits and 
  Investigative Service, Government Accountability Office:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Mr. Charles K. Edwards, Deputy Inspector General, Office of 
  Inspector General, U.S. Department of Homeland Security:
  Oral Statement.................................................    36
  Prepared Statement.............................................    37

                             For the Record

The Honorable Maxine Waters, a Representative in Congress From 
  the State of California:
  Letter From the American Alliance of Airport Police Officers...     5
  Letter From the Transportation Security Administration, U.S. 
    Department of Homeland Security..............................     7

 
      TSA'S SPOT PROGRAM AND INITIAL LESSONS FROM THE LAX SHOOTING

                              ----------                              


                      Thursday, November 14, 2013

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:39 a.m., in 
Room 311, Cannon House Office Building, Hon. Richard Hudson 
[Chairman of the subcommittee] presiding.
    Present: Representatives Hudson, McCaul, Brooks, Sanford, 
Richmond, Thompson, Jackson Lee, and Swalwell.
    Also present: Representatives Horsford, Payne, and Waters.
    Mr. Hudson. The Committee on Homeland Security, 
Subcommittee on Transportation Security will come to order.
    The subcommittee is meeting today to hear testimony on 
TSA's behavior detection activities and initial lessons learned 
from the tragic shooting that occurred at Los Angeles 
International Airport on Friday, November 1.
    I will now recognize myself for an opening statement.
    I would like to welcome everyone to this hearing and thank 
our witnesses for taking the time out of their schedules to be 
with us here today.
    Two weeks ago, a lone gunman opened fire at Los Angeles 
International Airport, tragically killing one transportation 
security officer, Gerardo Hernandez, and wounding two other 
TSOs, along with a high school teacher. On behalf of the 
committee, our sincerest condolences go out to the victims and 
their families.
    Transportation security officers take great personal risk 
every day in order to secure our Nation's aviation system and 
protect us against terrorism, and we thank them for their 
service.
    Before I continue with my opening remarks, I would like to 
ask everyone to join me in a moment of silence to honor the 
life of Officer Gerardo Hernandez.
    [Moment of silence.]
    Mr. Hudson. Thank you.
    In light of the recent tragedy that occurred at LAX, it is 
critical, now more than ever, for TSA to work with stakeholders 
to conduct a comprehensive review of security programs to 
ensure that resources are being used in the most effective and 
efficient manner and that coordination and communication with 
local law enforcement is seamless.
    The area prior to screening at an airport is a ``soft 
target'' where masses of people gather, much like a shopping 
mall or train station. This leaves airports open to virtually 
anyone who wants to enter, including someone who may have 
malicious intent. While it is the airport's responsibility to 
provide security and law enforcement, we all know that there 
are unavoidable risks of being in public spaces and incidents 
like this one.
    What is important now is to identify whether there were 
unnecessary vulnerabilities that we can learn from. Did TSA and 
airport police have seamless communication? Are there resources 
that could be shifted around to create a more robust, layered 
security posture?
    I don't expect our witnesses to have all the answers here 
today, but I do believe this hearing is a timely opportunity to 
examine one program that has been heavily criticized by both 
the Government Accounting Office and the DHS Office of 
Inspector General.
    TSA's Screening of Passengers by Observation Techniques 
program, also known as SPOT, deploys over 3,000 behavioral 
detection officers in an effort to identify passengers that may 
pose a risk to aviation security. These TSA employees are not 
trained law enforcement officers. As such, they rely on State 
and local law enforcement to handle any situations that may 
arise beyond the screening of passengers and their baggage or 
if they think someone is acting suspiciously. The way to 
determine if someone is acting suspiciously, according to the 
Government Accountability Office, is not based on proven 
science.
    We know the threats to aviation are real. Our enemies 
continue to plot against us. I think my colleagues would agree 
that we need layers of security; but those layers have to make 
sense; they can't be based on a hunch; they have to be proven.
    I want to commend Administrator Pistole for his tremendous 
effort to transform TSA into a risk-based agency. Programs such 
as PreCheck are a huge step in the right direction.
    But my concern with SPOT is that it doesn't necessarily 
address threats emanating from overseas. It may not provide the 
deterrence we are looking for, and I am not fully convinced it 
increases safety in its current form. Calling it risk-based and 
actually proving it being risk-based are two entirely different 
things.
    To my knowledge, there has not been a single instance where 
behavioral detection officers referred someone to law 
enforcement officers that has been deemed a terrorist. So that 
is important that we measure the effectiveness of the program 
and find a way to do that.
    The latest study conducted by the Government Accountability 
Office found that, first, human ability to accurately identify 
deceptive behavior based on behavioral indicators is the same 
or slightly better than chance; No. 2, that TSA has limited 
information to evaluate SPOT's effectiveness; and, finally, 
that it will be at least 3 years before TSA can report on the 
effectiveness of its behavior detection activities.
    GAO recommends that TSA limit further future funding for 
behavioral detection activities until it can provide 
scientifically validated evidence demonstrating that behavioral 
indicators can be used to identify passengers who pose a threat 
to aviation security. I look forward to hearing Administrator 
Pistole's intentions to address this recommendation.
    With that being said, I do see the value of using 
behavioral analysis to bolster aviation security, but only when 
we can prove that taxpayer dollars are being spent in the most 
effective manner possible. Perhaps reinforcing local law 
enforcement officers at airports who are well-equipped to 
detect suspicious behavior would make more sense than having 
3,000 employees directly employed by the TSA. But these are 
questions that we should examine.
    According to the Congressional Research Service, TSA's SPOT 
program is the only stand-alone behavior detection program 
within either DHS or DOJ. If this type of program worked, I 
suspect we might see other agencies with similar missions 
deploying stand-alone programs to detect suspicious behaviors, 
but so far we haven't.
    I look forward to hearing from TSA on how it plans to 
address the GAO and IG recommendations, including how it plans 
to assess SPOT's effectiveness.
    [The statement of Mr. Hudson follows:]
                  Statement of Chairman Richard Hudson
                           November 14, 2013
    Two weeks ago, a lone gunman opened fire at Los Angeles 
International Airport, tragically killing one Transportation Security 
Officer, Gerardo Hernandez, and wounding two other TSOs along with a 
high school teacher.
    On behalf of the committee, our sincerest condolences go out to the 
victims and their families. Transportation Security Officers take great 
personal risk every day in order to secure our Nation's aviation system 
and protect against terrorism. We thank them for their service.
    In light of the recent tragedy that occurred at LAX, it is 
critical, now more than ever, for TSA to work with stakeholders to 
conduct a comprehensive review of security programs, to ensure that 
resources are being used in the most effective and efficient manner, 
and that coordination and communication with local law enforcement is 
seamless.
    The area prior to screening at an airport is a ``soft target'' 
where masses of people gather, much like a shopping mall or a train 
station. This leaves airports open to virtually anyone who wants to 
enter, including someone with malicious intent.
    While it is the airport's responsibility to provide security and 
law enforcement, we all know that there are unavoidable risks of being 
in public spaces, and incidents like this one, albeit tragic, are not 
always preventable.
    What is important now is to identify whether there were any 
unnecessary vulnerabilities that we can learn from. Did TSA and airport 
police have seamless communication? Are there resources that could be 
shifted around to create a more robust, layered security posture?
    I don't expect our witnesses to have all the answers yet. But I do 
believe this hearing is a timely opportunity to examine one program 
that has been heavily criticized by both GAO and the DHS Office of 
Inspector General.
    TSA's Screening of Passengers by Observation Techniques program, 
also known as SPOT, deploys over 3,000 behavior detection officers in 
an effort to identify passengers that may pose a risk to aviation 
security.
    These TSA employees are not trained law enforcement officers. As 
such, they rely on State and local law enforcement to handle any 
situations that may arise beyond the screening of passengers and 
baggage or if they think someone is acting suspicious. And the way they 
determine if someone is acting suspicious, according to GAO, is not 
based on proven science.
    We know the threats to aviation are real. Our enemies continue to 
plot against us. I think my colleagues would agree that we need layers 
of security; but those layers have to make sense; they can't be based 
on a hunch; they must be proven.
    I want to commend Administrator Pistole for his tremendous efforts 
to transform TSA into a risk-based agency. Programs such as Pre-Check 
are a huge step in the right direction. But my concern with SPOT is 
that it doesn't address the threats emanating from overseas; it doesn't 
provide deterrence, and I'm not convinced it really makes us safer in 
its current form.
    Calling it risk-based, and actually proving it's risk-based, are 
two entirely different things.
    To my knowledge, there has not been a single instance where a 
behavior detection officer has referred someone to a law enforcement 
officer and that individual turned out to be a terrorist.
    The latest study conducted by GAO found that:
  <bullet> The human ability to accurately identify deceptive behavior 
        based on behavioral indicators is the same or only slightly 
        better than chance;
  <bullet> TSA has limited information to evaluate SPOT's 
        effectiveness; and
  <bullet> It will be at least 3 years before TSA can report on the 
        effectiveness of its behavior detection activities.
    GAO recommends that TSA limit future funding for behavior detection 
activities until it can provide scientifically validated evidence 
demonstrating that behavioral indicators can be used to identify 
passengers who pose a threat to aviation security. I look forward to 
hearing Administrator Pistole's intentions to address this 
recommendation.
    With that being said, I do see value in using behavior analysis to 
bolster aviation security, but only when we can prove that taxpayer 
dollars are being spent in the most effective manner possible.
    Perhaps reinforcing local law enforcement officers at airports, who 
are well-equipped to detect suspicious behavior, makes more sense than 
having 3,000 employees doing behavior detection at TSA.
    According to the Congressional Research Service, TSA's SPOT program 
is the only stand-alone behavior detection program within either DHS or 
DOJ. If this type of program worked, I suspect we would see agencies 
with similar missions developing stand-alone programs to detect 
suspicious behaviors. But we don't.
    I look forward to hearing from TSA on how it plans to address the 
GAO and IG recommendations, including how it plans to assess SPOT's 
effectiveness.

    Mr. Hudson. With that, I now recognize the Ranking Member 
of the subcommittee, the gentleman from Louisiana, Mr. 
Richmond, for 5 minutes for his opening statement.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you for 
calling this meeting and the bipartisan manner in which you 
work.
    I will yield a few minutes of my opening to the gentlelady 
from California, Ms. Maxine Waters, so that she can make an 
opening statement.
    Madam Ranking Member, before you start, I need to ask 
unanimous consent for Maxine Waters, Loretta Sanchez, Donald 
Payne, and Steven Horsford of Nevada to participate in today's 
meeting.
    Mr. Hudson. Without objection, so ordered.
    Ms. Waters. Thank you very much.
    I am very appreciative of Mr. Richmond for your allowing me 
to take this time to give an opening statement. I would also 
like to thank Chairman Michael McCaul and Ranking Member Bennie 
Thompson for allowing me to participate in this hearing, which 
will consider the initial lessons learned from the tragic LAX 
shooting incident, which occurred November 1 at Los Angeles 
International Airport in my Congressional district.
    I want to begin by joining with my colleagues to honor the 
life and service of Gerardo Hernandez, the Transportation 
Security Administration officer who was killed in the line of 
duty during this tragic incident. I offer my deepest 
condolences to his family and friends.
    I also honor all of the TSA officers, LAX police officers, 
and other first responders who risked their lives to stabilize 
the situation and protect the public.
    LAX is the sixth-busiest airport in the world and third in 
the United States. LAX offers 680 daily flights to 96 American 
cities and additional flights to 30 foreign countries. In 2012, 
LAX served more than 63 million passengers, processed more than 
1.9 million tons of air cargo, and handled more than 600,000 
landings and takeoffs.
    The safety and security of all of the people who work in 
and pass LAX is of paramount importance. The LAX shooting 
incident raises two specific security concerns that I will 
highlight today. The first is the need for law enforcement 
officers to be stationed at passenger screening checkpoints. 
The second is the need for airport police to have access to 
airport security cameras.
    Both of these issues were raised in a letter from the 
American Alliance of Airport Police Officers to TSA 
Administrator John Pistole on September 28, 2012, more than 13 
months before this tragic incident occurred. The letter was 
signed jointly by Marshall McClain, the president of the Los 
Angeles Airport Peace Officers Association, and Paul Nunziato, 
the president of the Port Authority Police Benevolent 
Association. In a response dated October 12, 2012, 
Administrator Pistole agreed that both of these issues merited 
further discussion.
    I hereby request that the committee include both the 
airport police officers' letter and Administrator Pistole's 
response in the record for today's hearing.
    [The information follows:]
      Letter From the American Alliance of Airport Police Officers
                                September 28, 2012.
The Honorable John Pistole,
Administrator, Transportation Security Administration, TSA-1 
        Administrator, 601 South 12th Street, Arlington, VA 20598.
    Dear Administrator Pistole: Thank you again for taking time this 
week to visit with our group to discuss our mutual goals of airport 
safety and security.
    As a follow-up to our discussion, please find below the five major 
issue areas we discussed with specific examples and proposed solutions:
   tsa and airport police screening point breach/incident protocol--
                         immediate notification
    Issue: When security breaches and/or incidents occur in TSA 
screening areas, TSA agents are attempting to investigate and/or self-
correct breaches, exposing the travelling public to risk, delaying 
investigatory actions and causing unnecessary travel disruptions.
    Example: In January 2012, two pipes which resembled pipe bombs were 
removed from a traveler's bag at LaGuardia Airport and set aside in a 
common area, prompting a security scare that was not reported to 
airport police until 6 hours later. See http://www.nypost.com/p/news/
local/queens/bomb_botch_at_lag_cNNAisT- re0rBixGKlehknI.
    Proposed Solution: TSA must be required to immediately notify 
airport police of security breaches and/or incidents at passenger 
checkpoints. Standard operating procedures must be prescribed between 
TSA and airport police when dealing with security breaches and/or 
incidents at passenger and baggage checkpoints.
   real-time airport police access to closed circuit security cameras
    Issue: Most airports do not have a coordinated airport-wide closed 
circuit security camera system. Instead, TSA, airport management, 
tenants, vendors, and others own and operate camera systems without a 
common repository. Most importantly, there is no requirement that 
stakeholders provide airport police with a camera feed should a crime 
or incident occur. In all breaches, real-time access to video is 
essential to airport police containing and assessing situations. The 
absence of a standardization that requires that airport police must be 
provided real-time access to any camera system on airport property has 
led to unnecessary disruptions and numerous incidents when perpetrators 
have eluded detainment.
    Example: At Newark Airport in August 2012, traces of explosives 
were identified on the hands of a woman at the TSA screening point. TSA 
did not follow protocol and detain her for secondary screening nor did 
they immediately contact airport police when they realized their 
serious error. A half-hour after the incident when airport police were 
notified, TSA could not even identify which of the three screening 
areas within the terminal was the breach area. As a result, the 
terminal was shut down for approximately 3 hours, delaying travel and 
inconveniencing thousands of passengers. See http://www.myfoxny.com/
story/19199785/security-breach-at-newark-airport#ixzz22mr44BK7.
    Proposed Solution: Any entity with security cameras at Category X 
airports must provide a real-time feed to the airport police's primary 
video surveillance system. Each entity is responsible for the cost of 
providing the feed.
    leo podium positions/screening rule--300 feet of screening area
    Issue: Current statute requires that a law enforcement officer 
(LEO) ``be able to provide prompt responsiveness to problems occurring 
at the screening points.'' The definition of ``prompt'' has been 
interpreted broadly.
    Example: At large New York City area airports, an officer must 
respond to ``problems'' at screening checkpoints within 5 minutes; a 
feat virtually impossible if an officer is charged with patrolling the 
entire terminal area and is performing other police functions. We share 
the concern you expressed about officer responses to TSA. The 
implementation of a 300-foot rule would address this matter and ensure 
a LEO is immediately prepared to answer TSA calls.
    Proposed Solution: A uniform standard should be applied to all 
Category X airports which would require a LEO within 300 feet of the 
passenger screening area.
      mandatory screening for all airport employees and armed tsa
    Issue: At various airports, prior to DHS permitting TSA to wear 
metal badges, all TSA employees were screened with other airport 
employees and passengers who enter the airport. TSA asserts that since 
they now wear metal badges that will set off screening alarms, they 
should be exempt from screening procedures. As a result, all TSA 
employees at LAX and any item they carry or have on their body (i.e. 
backpacks, purses, etc.) bypass the screening checkpoint.
    Example: At LAX, all airport employees must go through the TSA 
screening checkpoint except TSA, armed on-duty law enforcement 
officers, and Federal Flight Deck Officers (who also carry weapons). 
This issue is of great concern considering TSA agents have the 
potential of bringing prohibited, dangerous, and/or illegal items with 
them to work. Similarly, at JFK, airport employees are permitted to 
enter the airport via a rudimentary metal turnstile that is located 
immediately off the tarmac without passing through TSA screening. 
Again, these airports are among the most vulnerable to terrorist 
attacks in this country. In addition, two TSA agents are armed at LAX. 
They are: Don McMullen, Assistant Federal Security Director for TSA/Law 
Enforcement Division at LAX and a Task Force Officer on the FBI's Joint 
Terrorism Task Force, and John Lingram, TSA Assistant Special Agent in 
Charge at LAX and a former Federal air marshal.
    Proposed Solution: Policy should revert to pre-badge protocol which 
required TSA employees go through the TSA screening checkpoint before 
entering secure areas of the airport.
             tsa mission creep/definitive leo and tsa roles
    Issue: TSA agents are charged with screening every passenger and 
bag boarding commercial aircrafts. TSA agents are not law enforcement 
officers and are not trained nor equipped to perform police work. 
Airport police officers are vetted, attend an academy, and continually 
receive criminal policing, hijacking, and terrorist training. They are 
not screeners and do not seek to perform TSA-specific duties. TSA has 
expanded the scope of their authority beyond screening areas to more 
traditional ``police'' work without clear lines of delineation with 
airport police, jeopardizing public safety, contributing to a break in 
chain-of-command, and delaying timely law enforcement responses. This 
``mission creep'' threatens the security of the airport.
    Example: TSA's Behavior Detection Officer (BDO) program, which is 
designed to detect threat behavior patterns, has received almost 
universal criticism for its cost, lack of effectiveness, and racial 
profiling claims. Our officers have become frustrated with the program 
as BDO's have not produced a viable terrorist threat at any of our 
airports, yet many police hours have been expended in dealing with BDO 
claims to no avail. See http://www.nytimes.com/2012/08/12/us/racial-
profiling-at-boston-airport-officials-say.html?pagewanted=all and 
http://www.gao.gov/assets/310/304510.pdf.
    Proposed Solution: TSA employees who are not trained as Federal law 
enforcement officers should be restricted to conducting passenger and 
bag screening and agents should have no jurisdiction beyond passenger 
and baggage screening checkpoints. A pilot program should be conducted 
at two or three Category X airports to test the feasibility of only 
airport police, who have the foundational LEO training, knowledge of 
the specific airport environment, and ability to make arrests, to 
perform behavior detection activities in order to determine the 
efficiency, effectiveness, and cost comparisons between airport police 
BDO and TSA BDO programs.
    The members of the American Alliance of Airport Police Officers 
have a long and productive history and respected relationships with 
numerous Federal partners including the FBI, Customs, and airplane-
based Federal Air Marshals. The key to the success of our mutual 
efforts is that each participant has clear definitions of 
responsibilities. The only Federal entity with which our officers 
experience constant tension is with TSA non-law enforcement operations. 
It is important that we address the underlying issues and adjust our 
interactions to serve our mutual mission of keeping airports safe.
    In this vein, we hope you will thoroughly review and advance our 
recommendations. As we discussed, all airports are not created equally. 
Our airports are among the most trafficked and terrorist-targeted in 
the country and world. The rank-and-file officers we represent are 
fully committed to our mission and we seek to have a productive and 
more defined relationship with TSA to accomplish this goal. The 
implementation of these five initiatives would promote these efforts.
    We look forward to your responses and to working with you, House 
Homeland Security Chairman Peter King, and others to address these 
important concerns.
            Sincerely,
                                      Mr. Marshall McClain,
         President, Los Angeles Airport Peace Officers Association.
                                         Mr. Paul Nunziato,
            President, Port Authority Police Benevolent Assoc. Inc.
                                 ______
                                 
Letter From the Transportation Security Administration, U.S. Department 
                          of Homeland Security
                                  October 12, 2012.
Mr. Marshall McClain,
President, Los Angeles Airport, Peace Officers Association.
    Dear Mr. McClain: Thank you for your letter of September 28, 2012, 
co-signed by Mr. Paul Nunziato, president, Port Authority Police 
Benevolent Association, Inc. I appreciate that you took the time to 
bring to my attention concerns held by some local airport law 
enforcement officers regarding Transportation Security Administration 
(TSA) operations.
    As I mentioned during our in-person meeting on September 24, 2012, 
I place a great deal of value on cooperation and collaboration between 
TSA and our law enforcement partners at all levels. One of the many 
lessons I learned during my 27 years in law enforcement with the 
Federal Bureau of Investigation (FBI) is the importance of 
communication between different organizations that have a shared 
responsibility for the safety and security of the American public. That 
lesson has been reinforced during my tenure as the TSA Administrator, 
and it is from that perspective that I am responding to your concerns 
and recommendations.
    When Congress enacted the Aviation and Transportation Security Act 
(ATSA) in the aftermath of the 9/11 attacks, they assigned overall 
responsibility for security of the Nation's transportation systems to 
the newly created TSA. In addition to requiring that security screening 
operations for passengers be conducted directly by Federal employees of 
the TSA or under direct TSA oversight, ATSA also conveyed to the TSA 
Administrator broad responsibility and authority for security in all 
modes of transportation. While most TSA personnel are assigned to 
traditional passenger and checked baggage screening operations at 
commercial airports, TSA responsibilities and operations are neither 
limited nor restricted to these areas. Despite having overall 
responsibility for transportation security, the authority of the TSA 
Administrator to execute that responsibility is not unlimited, and in 
reality is shared with other Government and private-sector entities.
    Within the commercial airport context, TSA shares security 
responsibility with airport operators, air carriers, airport assigned 
law enforcement personnel, U.S. Customs and Border Protection, and the 
FBI. Each of these entities operates under different authorities and 
constraints. However, despite frequently divergent interests and 
motivations, all these organizations share a common underlying interest 
in protecting commercial aviation from acts of terrorism. I also 
believe that each of these organizations strongly support TSA's effort 
to fully implement risk-based principles in our approach to security 
with the goal to provide the most effective security in the most 
efficient way.
    After reflecting on your concerns and considering the proposed 
solutions proffered in your letter, I believe there is sufficient 
common interest and agreement for us to engage in further discussions 
that will improve our collective ability to protect commercial aviation 
from acts of terrorism. The following provides my reply to your five 
specific proposals:
 require immediate notification to airport police by local tsa of all 
      security breaches and/or incidents at passenger checkpoints
    TSA standard operating procedures require immediate notification to 
local law enforcement upon discovery of a deadly or dangerous item 
during security operations. Additionally, law enforcement notification 
is required whenever potential evidence of criminality is identified 
during TSA conducted searches of passenger and property. There are 
several other situations that require immediate notification to law 
enforcement, and I am happy to have my staff provide a more detailed 
explanation of current TSA criteria for immediate notification. 
Regarding the specific LaGuardia Airport example contained in your 
letter, shortly after discovery, the item in question was determined to 
be a non-hazardous homeopathic device by our Transportation Security 
Specialist Explosives (TSS-E) assigned to the airport. As occurs 
hundreds of times a day at airports around the Nation, TSS-E assist 
with quickly resolving explosives alarms and potential suspect devices 
identified during screening operations. This capability allows for 
quick resolution of nearly all alarms without the need for bomb squad 
response or shutting down and evacuating screening areas and directly 
supports the concept of providing the most effective and efficient 
security. At a higher level, the concern you raise really gets to the 
larger question of unified command during a security incident where 
incident response and management decisions are made based on the best 
information available from all entities involved in the situation. 
Rather than focusing narrowly on notification requirements, I would 
prefer discussions that get to a better understanding of how TSA and 
local law enforcement can operationalize a unified command approach 
that is more effective in responding to and mitigating the impact of 
security incidents.
  require real-time cctv systems access be provided to airport police
    In most instances, TSA does not own or operate airport CCTV systems 
except for those associated with access points into TSA direct leased 
spaces. Although local TSA officials have direct access to CCTV systems 
that were purchased and installed with funding provided to the airport 
authority by TSA, we do not have direct access to every CCTV camera 
installed at every airport. Even within the counter-terrorism context, 
questions exist about whether TSA has the authority to compel real-time 
CCTV access. If local law enforcement agencies lack the authority to 
compel private companies to provide them with real-time CCTV access, it 
is doubtful that the Federal Government has this authority--especially 
when the intended use of CCTV footage broadens into criminal 
investigation and away from strict counterterrorism. That being said, I 
do believe that this issue warrants additional discussion and that we 
can reach an agreement on an approach to gain cooperation from all of 
the operators of the various CCTV systems at an airport to grant access 
to local law enforcement personnel. However, lack of direct CCTV access 
during the Newark Liberty International Airport (EWR) incident 
referenced in your letter was not the reason why the terminal was shut 
down and evacuated for over 3 hours. In fact, the Federal Security 
Director (FSD) determined within 35 minutes that there was no reason to 
evacuate the terminal and directed that passenger screening operations 
continue. This determination, made by the senior TSA official with 
overall responsibility for aviation security at EWR, was communicated 
to the senior local law enforcement official on scene, airport 
authority, and air carriers. Despite this risk-based determination, law 
enforcement decided unilaterally to order the terminal evacuation and 
barred passengers from entering the security checkpoint. This incident 
again points to the need for more effective unified command and 
progress is being made at Newark towards that end.
implement a fixed 300-foot patrol perimeter for checkpoint support law 
                         enforcement personnel
    When TSA decided to allow local FSDs the discretion to work with 
local law enforcement to adopt a flexible response protocol for 
checkpoint security incidents, the intent was to allow local officials 
to determine how to structure the best approach based on local 
conditions. Allowing law enforcement officers assigned to checkpoint 
support operations to roam beyond the checkpoint increases the 
visibility of these officers, security posture in other areas of the 
airport, and staffing flexibility. As budgets for all Federal, State, 
and local agencies become tighter, adopting a standard that removes 
flexibility may prove counter-productive to the overall security 
posture at large airports. However, I am willing to have my staff 
engage in a broader discussion on the topic of law enforcement support 
for checkpoint security operations to determine if a change in approach 
would better support unified incident command.
 implement mandatory screening for all airport employees and armed tsa 
                               personnel
    I do not support your suggestion, and do not feel it makes sense 
for several different reasons. First, the two armed TSA personnel at 
LAX: Assistant Federal Security Director for TSA/Law Enforcement 
Division (AFSD-LE) Don McMullen and TSA/AFSD-LE John Lindgren, formerly 
Assistant Federal Air Marshal in Charge (ASAC) of the FAMS Los Angeles 
field office, identified in your letter, are sworn Federal law 
enforcement officers with full authority to carry a firearm, which 
allows them to make an arrest without a warrant for any offense against 
the United States committed in their presence or for any felony under 
the laws of the United States. They are also authorized to seek and 
execute warrants of arrest or perform seizure of evidence. It makes 
little sense to adopt a policy that would treat TSA law enforcement 
personnel differently than other armed Federal, State, or local law 
enforcement officers engaged in official duties at an airport. Second, 
your suggestion with respect to the uniformed Transportation Security 
Officer (TSO) workforce is counter to implementing a risk-based 
approach to aviation security. These individuals are trusted to operate 
on the front lines executing the TSA mission at our airports and 
requiring them to be subject to physical screening diverts resources 
with little if any counterterrorism impact. Finally, as I mentioned 
during our meeting, TSA is not resourced to conduct 100 percent airport 
employee screening. Based on the experience gained through several 
pilot efforts mandated by Congress, TSA would require a significant 
increase in the number of TSOs to fully implement your proposal, which 
are not currently available.
   conduct a pilot program where local law enforcement personnel are 
      trained and exclusively perform behavior detection screening
    Your comment that airport police officers ``have become frustrated 
with the program as BDOs have not produced a viable terrorist threat'' 
indicates the need for a better understanding of the BDO program. TSA's 
Behavior Detection Program currently provides a behavior awareness 
briefing to law enforcement entities who have regular interactions with 
BDOs, upon request from the law enforcement department. I am willing to 
explore a pilot program to assess the overall security benefits of 
providing law enforcement officers further training in behavior 
detection screening to augment TSA behavior screening operations, but I 
do not concur with the rest of your proposed solution or its underlying 
premise. As I noted above, TSA authority and jurisdiction is not 
limited to passenger and baggage screening locations and I have no 
intention to impose any such limitations. With respect to the BDO 
program, the vast majority of anomalous behaviors indicative of a 
potential elevated threat to aviation are quickly resolved by our BDO 
cadre through casual conversation. Across all TSA screening operations, 
a very small percentage of passengers are identified for more thorough 
screening as a result of observed behaviors, and an even smaller amount 
of those BDO interactions result in a request to local law enforcement 
for assistance. As example, of the nearly 24 million passengers 
screened at John F. Kennedy International Airport (JFK) over the past 
12 months, only a few thousand were identified for additional screening 
by our BDO teams, and a marginal amount resulted in a request for law 
enforcement assistance. Clearly these statistics do not support the 
contention that many police hours are being expended in support of our 
BDO program. Of more important concern to me is the fact that despite 
averaging a low number of requests for law enforcement assistance per 
month resulting from the BDO program at JFK, law enforcement officers 
failed to respond to those requests too frequently.
    I am confident that through improved communication we can reach a 
better understanding and clarity with respect to roles and 
responsibilities, and that this achievement will diminish the potential 
for unhealthy tension between TSA and our security partners at 
commercial airports. These communications are needed at both the 
National level as well as within each individual airport community 
where the shared responsibility for aviation security plays out each 
and every day. Because of the multiple interests at play, these 
discussions need to include broader participation beyond the American 
Alliance of Airport Police Officers (AAAPO).
    As you allude to in your letter, improved understanding and 
communication are important drivers towards a highly effective aviation 
security system. To that end, I have directed the TSA Assistant 
Administrators for the Law Enforcement/Federal Air Marshal Service and 
Security Operations to further discuss with AAAPO and the Airport Law 
Enforcement Association Network (ALEAN) how to improve the level of 
cooperation and communication between TSA and local airport law 
enforcement. Based on your specific suggestions, these discussions will 
include improving unified command structures during incident response; 
improved access to CCTV systems at airports where access by law 
enforcement is problematic; review of policies for deployment of law 
enforcement resources in support of checkpoint screening operations; 
and, expanding current LEO behavior briefing to the appropriate 
additional law enforcement personnel. However, I am mindful that any 
proposed solution must involve other entities such as the leadership of 
Port Authority of New York and New Jersey Police, Los Angeles World 
Airways Police, American Association of Airport Executives, the 
Alliance for Airlines, and the individual airport operators potentially 
impacted by any proposed changes.
    I appreciate that you took the time to share your concerns with us 
and hope this information is helpful. An identical letter is being sent 
to Mr. Paul Nunziato.
            Sincerely yours,
                                           John S. Pistole,
                                                     Administrator.

    Ms. Waters. There are two methods by which police may 
provide law enforcement support for TSA's passenger screening 
checkpoints. The fixed-post method requires a police officer to 
be stationed at the passenger screening checkpoint. The 
flexible response method allows the police to roam the 
surrounding area but requires that they be able to respond to a 
problem at the checkpoint within a specified time period.
    The airport police officers' letter explained that it is 
virtually impossible for an individual police officer to 
respond quickly to a problem at a screening checkpoint if the 
officer is responsible for patrolling an entire terminal area 
and performing other police functions. The letter recommends a 
uniform standard for all major airports which would require a 
law enforcement officer within 300 feet of the passenger 
screening area.
    It is my understanding that LAX police officers did indeed 
provide both fixed-post and roaming police officers at LAX at 
the time this letter was written. Then last April, 6 months 
after Administrator Pistole agreed to discuss the issue, a 
decision was made to waive the requirement for fixed-post 
officers at LAX. In any event, there was apparently no fixed-
post officer stationed at the affected LAX checkpoint when the 
shooting began.
    The LAX's police officers' letter also raised the issue of 
real-time airport police access to airport security cameras. As 
the letter explained, most airports do not have a coordinated 
airport-wide security camera system. Instead, TSA airport 
management, airlines, and vendors own and operate their own 
security camera systems. There is no requirement that they 
provide airport police with a camera feed should an incident 
occur. This is certainly the case at LAX. It is my 
understanding----
    Mr. Hudson. The gentlelady's time has expired.
    Ms. Waters. Thank you very much.
    I know that this was about the TSA SPOT program. I did not 
refer to it specifically because I just don't think it is 
viable or doable and I do believe that it is profiling. So I 
wanted to talk about some of the real issues that I think you 
could entertain.
    Thank you very much, and I yield my time.
    Mr. Hudson. I thank the gentlelady.
    The Ranking Member's time has expired.
    [The statement of Mr. Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                           November 14, 2013
    I want to give a special thanks to Administrator Pistole for your 
service and leadership in the wake of the tragic shooting at LAX on 
November 1.
    Yet again, a committee is meeting on Capitol Hill to discuss a 
shooting by a lone wolf. Another in a seemingly endless series of 
tragic shootings that have separated husbands from wives, parents from 
children, and friends from colleagues. From Aurora to Newtown to the 
Navy Yard, it seems that every week we are back in the Capitol, a 
committee is holding a hearing to explore how and why a senseless act 
of gun violence occurred, garnering National headlines.
    Rarely are there simple answers and rarely do we address the core 
issues that allow these events to occur time and time again. Nor do we 
examine all, or even more than a small sample, of the total number of 
incidents of gun violence that occur each day, week, and month in our 
Nation.
    This time, we are meeting to explore the circumstances surrounding 
the targeted killing of a Transportation Security Officer. Gerardo 
Hernandez, the first TSA employee to be killed in the line of duty. But 
Officer Hernandez was more than that. He was, by all known accounts, a 
loving husband and father, loyal friend, and dedicated Federal 
employee. A man who, like so many other Transportation Security 
Officers, took pride in his job, defending our Nation from those who 
seek to do us harm.
    Despite a constant barrage of criticism from Members of Congress, 
the media, and a litany of bloggers who fancy themselves security 
experts from behind their computer screens, Officer Hernandez and his 
fellow TSOs continued to do their part to secure our Nation, even 
during the shutdown, when political grandstanding put their paychecks 
in jeopardy. It is unclear whether there are any policies or procedures 
that can be put into place or dollars that can be spent to prevent what 
happened at LAX from happening again.
    But in Washington, proposals for new policies will come fast and 
furiously. I would caution that we should guard against taking any 
steps prior to having a full understanding of the events that occurred 
at LAX and the impact policy changes would have on the Nation. Maybe 
there are common-sense steps that could be taken to improve 
coordination between local law enforcement agencies and TSA, such as 
ensuring they can communicate via radios during emergencies--this 
wasn't the case at LAX on the day of the shooting.
    But even common-sense fixes have potentially unintended 
consequences and costs associated with them. Regarding cost, the 
Government Accountability Office has pointed Congress to a TSA program 
without scientific merit that the agency funds at over $200 million per 
year. I am, of course, speaking of TSA's SPOT program and GAO's report 
released yesterday.
    I, for one, needed no further convincing the SPOT program 
represents an inefficient use of taxpayer dollars. Indeed, I have 
proposed legislation to use the funds allocated to this program as an 
offset for student loans.
    Hopefully, GAO's report, along with the previous work of the 
Department of Homeland Security Inspector General, will help other 
Members come to the conclusion that TSA's SPOT program is a failed 
experiment that no longer merits hundreds of millions of dollars in 
funds per year. Frankly, with resources scarce and Members looking for 
offsets anywhere they can find them, I cannot imagine how this program 
continues to garner Congressional support in the wake of GAO's report.
    To that end, I would encourage Administrator Pistole to include 
within his review of security procedures at checkpoints an assessment 
of how SPOT funds could be allocated to enhance and expand the use of 
security technologies and procedures that have been proven effective.

    Mr. Hudson. The Chairman will now recognize the Chairman of 
the full committee, the gentleman from Texas, Mr. McCaul, for 
any statement he may have.
    Mr. McCaul. Thank you, Chairman Hudson, for holding this 
important hearing.
    Thank you to our witnesses for being here.
    At the outset, I would like to first commend Administrator 
Pistole for his leadership, particularly with the positive 
development of the PreCheck system that you and I have talked 
extensively about, in terms of rolling out across the Nation. 
You have done an outstanding job.
    In fact, finally, I think we got Southwest Airlines now to 
sign up, and that is going to be a huge sea change, if you 
will, at the airports in terms of the traveling public and 
being passenger-friendly while targeting the threats. I want to 
thank you for that.
    From your time at the FBI to your years at TSA, you have 
been a true public servant. This committee certainly 
appreciates your dedication to homeland security and, 
importantly, aviation security, which many people forget is 
still very much an unfortunately viable threat to the traveling 
public.
    Two weeks ago, a lone gunman carried out a senseless and 
shocking act of violence at Los Angeles International Airport, 
targeting transportation security officers. The individual who 
carried out this vicious assault took one life of our officers 
and wounded three others. Our thoughts and prayers are with the 
victims and their families during this difficult time.
    What this incident demonstrates, once again, is just how 
vulnerable public spaces can be to those who wish to carry out 
such attacks. The swift response by local law enforcement is 
laudable. However, there are still some unanswered questions 
about the shooting itself.
    A week after the incident took place, I was surprised to 
learn that the police officer assigned to patrol around the 
security checkpoint at LAX may not have been in the correct 
vicinity of the checkpoint to immediately respond when the 
shots were fired. To me, this is very significant. While we 
have since been told the officer may have, in fact, been within 
the required 3-minute radius of the checkpoint, this issue does 
raise new questions about the response protocols currently in 
place and how they work.
    More importantly, in the chaos of evacuating the 
checkpoint, which no doubt saved many lives, according to the 
airport operator, no one at the screening checkpoint pushed the 
panic button that is supposed to be used in these situations to 
alert local authorities. A landline at the checkpoint was 
almost used by a TSO to communicate with police, but the phone 
was understandably abandoned during the evacuation because it 
wasn't mobile. Police responded based upon a phone call from an 
airline contractor rather than the TSA.
    The response to the LAX shooting, by all accounts, was 
swift and successful. Local police, TSA personnel, and the 
medical personnel who responded deserve tremendous praise. 
Having said that, terrorists are constantly looking for 
vulnerabilities in our system. We must do everything we can to 
secure the perimeters of airports, ensure robust coordination 
and communication systems are in place between local law 
enforcement and TSA, and use the limited resources effectively 
at airports across the United States.
    While the response from local authorities undoubtedly saved 
lives, the gunman had 4 unobstructed minutes--4 minutes. Four 
minutes in a time like this is a long time; with 150 rounds, is 
a very long time. It is extraordinary that more lives were not 
taken. It is a miracle that that didn't happen, and we thank 
God that didn't happen that day. But 4 unobstructed minutes to 
wreak havoc in one of the largest, busiest airports in the 
country. If his goal was to produce mass casualties rather than 
target TSA personnel, the outcome would have been more severe.
    Several questions come to mind in light of this incident. 
Are emergency response times at airports adequate? Does TSA 
have appropriate plans and means to communicate with law 
enforcement in the event a checkpoint is evacuated? 
Fortunately, LAX had recently exercised--and I commend the 
administrator, John Pistole. They actually did an exercise for 
this type of situation just weeks before this event.
    I am pleased that TSA will be undertaking a review to see 
what lessons can be learned from LAX, and I look forward to 
discussing those results. I encourage TSA to fully engage 
stakeholders as part of its review. Private industry obviously 
has a significant role to play when it comes to securing 
airports and airplanes from bad actors.
    In addition, today's hearing is an opportunity to also 
examine some of the findings in GAO's most recent report on 
TSA's Screening Passengers by Observation Techniques program, 
commonly referred to as SPOT.
    I had the opportunity to observe this program first-hand a 
few years ago, during a visit to Boston Logan Airport on the 
anniversary of 9/11. I am a fan of this program; don't get me 
wrong. I have seen it work first-hand. I have been a strong 
advocate for this program. However, we have had results of the 
GAO study that are less than favorable.
    GAO recommends that TSA limit future funding for the 
program until an accurate study is completed that supports 
using behavioral indicators to identify threats to aviation. 
Based on TSA's own plans, it will be at least 3 years before we 
can begin measuring the effectiveness of SPOT.
    I know TSA disagrees with GAO's findings, and I look 
forward to hearing that, and also argues that SPOT is risk-
based, which I think is a good premise. I would like to hear 
TSA's explanation and information used to support this.
    Frankly, I am disappointed with the findings of the report 
because I believe, as I said, there is value in assessing 
behavior in the aviation environment. There are century-old 
techniques and tools of law enforcement and other security 
organizations, including Israel--many people point to Israel as 
a model--that allow individuals to assess behavior, but if this 
program isn't working, we need to find something that will more 
effectively.
    I am concerned that TSA will continue to so-called spin its 
wheels with this program instead of developing a more effective 
and efficient approach. I hope I am wrong on that point, but I 
look forward to not only discussing GAO and DHS IG's 
recommendations for this program but also whether there are 
better ways of integrating behavior analysis into aviation 
security, perhaps by reinforcing local law enforcement and 
other alternative approaches.
    I look forward to discussing the elements of TSA's review 
of the LAX shooting. The bottom line is we need to do all we 
can to protect our aviation system and to evolve our security 
measures, just as the threats against us are evolving.
    Let me just to close by, again, to John Pistole, I admire 
what you are doing. It is not easy representing an agency that 
comes under so much scrutiny. It is sometimes the face of 
Homeland Security, and I think you are doing a good job making 
that face a better face across the country and making it more 
passenger-friendly and more targeted toward the terrorist.
    I do believe this program--I don't believe, as some would 
say--I got asked on the nightly news last night, do you favor 
scrapping this program? I said, no, I don't. I believe 
detecting behavior can be so important, in terms of stopping 
the threat. But I do believe that it could be more effective 
and efficient for the American taxpayer, and I think that is 
what we are all here to do.
    So, with that, Mr. Chairman, thank you for indulging me. I 
know my remarks went a little bit over. I appreciate you 
holding this hearing.
    [The statement of Mr. McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           November 14, 2013
    Two weeks ago, a lone gunman carried out a senseless and shocking 
act of violence at Los Angeles International Airport, targeting 
Transportation Security Officers. The individual who carried out this 
vicious assault took one life and wounded three others. Our thoughts 
and prayers are with the victims and their families during this 
difficult time.
    What this incident demonstrates, once again, is just how vulnerable 
public spaces can be to those who wish to carry out attacks.
    The swift response by local law enforcement is laudable. However, 
there are still some unanswered questions about the shooting itself. A 
week after the incident took place, I was surprised to learn that the 
police officer assigned to patrol around this security checkpoint at 
LAX may not have been in the correct vicinity of the checkpoint to 
immediately respond when shots were fired. To me this is very 
significant.
    While we have since been told the officer may have, in fact, been 
within the required 3-minute radius of the checkpoint, this issue does 
raise new questions about the response protocols currently in place and 
how they work.
    More importantly, in the chaos of evacuating the checkpoint, which 
no doubt saved many lives, according to the airport operator, no one at 
the screening checkpoint pushed the panic button that is supposed to be 
used in these situations to alert local authorities. A landline at the 
checkpoint was almost used by a TSO to communicate with police, but the 
phone was understandably abandoned during the evacuation because it 
wasn't mobile. Police responded based on a phone call from an airline 
contractor rather than TSA.
    The response to the LAX shooting, by all accounts, was swift and 
successful. Local police, TSA personnel, and the medical personnel who 
responded deserve tremendous praise.
    Having said that, terrorists are constantly looking for 
vulnerabilities in our system. We must do everything we can to secure 
the perimeter of airports, ensure robust coordination and communication 
systems are in place between local law enforcement and TSA, and use 
limited resources effectively, at airports across the United States.
    While the response from local authorities undoubtedly saved lives, 
the gunman had 4 unobstructed minutes--4 minutes in a time like this is 
a long time and with 150 rounds it's extraordinary more lives were not 
taken. He had 4 unobstructed minutes to wreak havoc in one of the 
largest, busiest airports in the country. If his goal was to produce 
mass casualties, rather than target TSA personnel, the outcome would 
have been more severe. Several questions come to mind in light of this 
incident:
  <bullet> Are emergency response times at airports adequate?
  <bullet> Does TSA have appropriate plans and means to communicate 
        with law enforcement in the event a checkpoint is evacuated?
  <bullet> Fortunately, LAX had recently exercised for this type of 
        situation just weeks before this event.
    I am pleased that TSA will be undertaking a review to see what 
lessons can be learned from LAX, and I look forward to discussing the 
results of that review.
    I also encourage TSA to fully engage stakeholders as part of its 
review. Private industry obviously has a significant role to play when 
it comes to securing airports and airplanes from bad actors.
    In addition, today's hearing is an opportunity to examine some of 
the findings in GAO's most recent report on TSA's Screening Passengers 
by Observation Techniques Program, commonly referred to as SPOT. I had 
the opportunity to observe this program first-hand a few years ago, 
during a visit to Boston Logan Airport on the anniversary of 9/11.
    However, the results of GAO's study are less-than-favorable. GAO 
recommends that TSA limit future funding for the program until an 
accurate study is completed that supports using behavioral indicators 
to identify threats to aviation. Based on TSA's own plans, it will be 
at least 3 years before we can begin measuring the effectiveness of 
SPOT.
    I know TSA disagrees with GAO's findings, and argues that SPOT is 
risk-based, which I think is a good premise. I would like to hear TSA's 
explanation and the information used to support it.
    Frankly, I am disappointed with the findings of the report because 
I believe there is value in assessing behavior in the aviation 
environment. There are centuries-old techniques and tools of law 
enforcement and other security organizations, including Israel, that 
allow individuals to assess behavior; but if this program isn't 
working, we need to find something that will work more effectively.
    I am concerned that TSA will continue to spin its wheels with this 
program instead of developing a more effective and efficient approach. 
I hope I am wrong on that point.
    I look forward to not only discussing GAO and DHS IG 
recommendations for this program, but also whether there are better 
ways of integrating behavior analysis into aviation security, perhaps 
by reinforcing local law enforcement, or other alternative approaches.
    I also look forward to discussing the elements of TSA's review of 
the LAX shooting. The bottom line is we need to do all that we can to 
protect our aviation system, and to evolve our security measures just 
as the threats against us are evolving.

    Mr. Hudson. I thank the Chairman.
    The Chairman now recognizes the Ranking Minority Member of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for any statement he may have.
    Mr. Thompson. Thank you, Mr. Chairman. Thank you for 
holding this hearing today.
    At the outset, I would like to join my colleagues in 
expressing condolences to Officer Hernandez's wife, children, 
friends, and family, and all of the employees of the 
Transportation Security Administration.
    Today, I will be joining Chairman McCaul, Chairman Hudson, 
Ranking Member Richmond, and Congresswoman Waters in 
introducing a resolution condemning the shooting at LAX and 
expressing condolences to Officer Hernandez's family. 
Unfortunately, it appears that the Majority leader's protocol 
will not afford for the resolution to be considered on the 
House floor.
    To Administrator Pistole, please know and take back to the 
workforce that this committee stands with the agency in this 
trying time.
    The shooting that took place at LAX was a tragic and 
senseless act of violence. All evidence points to a shooter 
with extreme anti-Government views who intentionally and 
exclusively targeted TSA employees. These are some of the 
Federal officers responsible for protecting our Nation against 
terrorist attack. I hope this incident will result in less 
rhetoric about, and demonizing of, transportation security 
officers.
    It is also my hope that TSA takes a comprehensive look at 
how such an incident can be prevented or further mitigated in 
the future. I applaud Administrator Pistole for taking the 
initial step of announcing that he will conduct a review of 
security procedures at checkpoints. I also applaud the 
administrator for conducting outreach to a wide variety of 
stakeholders and Federal partners before defining the scope of 
his review. This review should serve as an opportunity to 
examine not only TSA's partnerships and coordination with local 
law enforcement but also of TSA's policies, programs, and 
partnerships affecting checkpoint operations.
    Today, in addition to discussing the initial lessons from 
the shootings at LAX, we will examine reports issued by the 
Government Accountability Office and the Department of Homeland 
Security's Office of Inspector General regarding TSA's 
Screening of Passengers by Observation Techniques program, 
commonly referred to as SPOT.
    GAO's report pulls no punches when it comes to this 
behavior detection program that costs taxpayers more than $220 
million per year, recommending that Congress consider the lack 
of scientific evidence to support the program when making 
funding decisions. The Inspector General's report, released in 
May, concluded that TSA could not provide evidence of the cost-
effectiveness of the SPOT program.
    Given the limited post-sequester dollars available for 
transportation security activities, we do not have the luxury 
of spending hundreds of millions of dollars per year on 
programs for which TSA cannot prove the effectiveness of or 
scientifically validate.
    Since 2007, TSA has spent nearly $1 billion on this 
misguided program. Even TSA admits that it will be years before 
the agency may be able to display the effectiveness of the SPOT 
program. That means hundreds of millions more in taxpayer 
dollars will need to be spent just to find out whether the 
program is effective.
    It is no secret that I have been a critic of the SPOT 
program since its inception and expansion prior to being 
validated. In June of this year, I offered an amendment on the 
House floor to prohibit TSA from using funds for the SPOT 
program. Even if I were the program's most vocal proponent, I 
would not be able to justify continuing to fund it following a 
review of the GAO and DHS IG report that will be examined 
today.
    To be clear, I have no doubt that the men and women working 
on the front lines of this program, the behavior detection 
officers, are performing as instructed and believe in their 
service. But we cannot continue to fund programs with the hope 
that they will work. We must prioritize limited funds for 
programs that have been proven effective.
    The SPOT program does not fit that description. You can't 
have a program validated without science. I have requested that 
validation on a number of occasions, and all reports say there 
is no science in it.
    So I have real concerns about it. There are people who talk 
about other models, but you talk about countries where civil 
rights and civil liberties are not a part of the protocol. So 
you can do behavior detection in countries where civil rights 
and civil liberties are not part of the protocol, but in 
America you can't profile people without protecting their civil 
rights and civil liberties. So I am concerned about that.
    I also just want to thank each of the witnesses for 
appearing before the subcommittee today. I look forward to your 
testimony and the responses to Members' questions.
    I would also like to thank all my colleagues on the 
Minority side for attending this hearing. Obviously, it is of 
importance to a lot of us, as well as Majority Members. I look 
forward to the testimony.
    I yield back.
    [The statement of Mr. Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           November 14, 2013
    At the outset, I would like to join my colleagues in expressing 
condolences to Officer Hernandez's wife, children, friends, and family 
and to all of the employees of the Transportation Security 
Administration. Today, I will be joining Chairman McCaul, Chairman 
Hudson, Ranking Member Richmond, and Congresswoman Waters in 
introducing a resolution condemning the shooting at LAX and expressing 
condolences to Officer Hernandez's family. Unfortunately, it appears 
that the Majority Leader's protocols will not afford for the resolution 
to be considered on the House floor.
    To Administrator Pistole, please know, and take back to the 
workforce, that this committee stands with the agency in this trying 
time. The shooting that took place at LAX was a tragic and senseless 
act of violence. All evidence points to a shooter with extreme anti-
Government views who intentionally and exclusively targeted TSA 
employees.
    These are some of the very Federal officers responsible for 
protecting our Nation against a terrorist attack. I hope this incident 
will result in less rhetoric about, and demonizing of, Transportation 
Security Officers.
    It is also my hope that TSA takes a comprehensive look at how such 
an incident can be prevented or further mitigated in the future. I 
applaud Administrator Pistole for taking the initial step of announcing 
that he will conduct a review of security procedures at checkpoints. I 
also applaud the administrator for conducting outreach to a wide 
variety of stakeholders and Federal partners before defining the scope 
of his review.
    This review should serve as an opportunity to examine not only 
TSA's partnerships and coordination with local law enforcement, but 
also all of TSA's policies, programs, and partnerships affecting 
checkpoint operations.
    Today, in addition to discussing the initial lessons from the 
shooting at LAX, we will examine reports issued by the Government 
Accountability Office and the Department of Homeland Security's Office 
of Inspector General regarding TSA's Screening of Passengers by 
Observation Techniques program--commonly referred to as SPOT.
    GAO's report pulls no punches when it comes to this behavior 
detection program that costs taxpayers more than $220 million per year, 
recommending that Congress consider the lack of scientific evidence to 
support the program when making funding decisions. The Inspector 
General's report, released in May, concluded that TSA could not provide 
evidence of the cost-effectiveness of the SPOT program.
    Given the limited post-sequester dollars available for 
transportation security activities, we do not have the luxury of 
spending hundreds of millions of dollars per year on programs for which 
TSA cannot prove the effectiveness of, or scientifically validate.
    Since 2007, TSA has spent nearly $1 billion on this misguided 
program. Even TSA admits that it will be years before the agency may be 
able to display the effectiveness of the SPOT program.
    That means hundreds of millions more in taxpayer dollars will need 
to be spent just to find out whether the program is effective. It is no 
secret that I have been a critic of the SPOT program since its 
inception and expansion prior to being validated.
    In June of this year, I offered an amendment on the House floor to 
prohibit TSA from using funds for the SPOT program. Even if I were the 
program's most vocal proponent, I would not be able to justify 
continuing to fund it following a review of the GAO and DHS IG reports 
that will be examined today.
    To be clear, I have no doubt that the men and women working on the 
front lines of this program, the Behavior Detection Officers, are 
performing as instructed and believe in their service.
    But we cannot continue to fund programs with the hope that they 
will work. We must prioritize limited funds for programs that have been 
proven effective. The SPOT program does not fit that description.

    Mr. Hudson. I thank the gentleman, Mr. Thompson.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    Before we continue, I would like to ask unanimous consent 
to insert a statement into the record for the gentleman from 
South Carolina, Mr. Duncan.
    Without objection, so ordered.
    [The statement of Mr. Duncan of South Carolina follows:]
                   Statement of Honorable Jeff Duncan
                           November 14, 2013
    The senseless act of violence that occurred at Los Angeles 
International Airport (LAX), which resulted in the death of a TSA 
officer and injuries of many, is a harsh reminder of the daily threat 
our airports and traveling public face. The Transportation Security 
Administration (TSA) was created following the September 11 attacks to 
strengthen the security of our Nation's transportation systems.
    In an effort to further enhance passenger screening, in 2007, TSA 
deployed the Screening of Passengers by Observation Techniques (SPOT) 
program. This program employs Behavior Detection Officers (BDOs) to 
observe, visually assess, and identify potentially high-risk passengers 
by analyzing their behaviors that may indicate stress, fear, or 
deception.
    Unfortunately, while TSA insists they have added an additional 
layer of security at our Nation's airports, according to the Government 
Accountability Office (GAO) this is not the case. In their November 
2013 report, which I requested, GAO states that with an absence of 
scientific evidence for using behavioral indicators to identify 
aviation security threats, the SPOT program is not completely valid. 
After analyzing over 400 studies, GAO found that ``the human ability to 
accurately identify deceptive behavior based on behavioral indicators 
is the same as or slightly better than chance.''
    The GAO had also previously issued a report on TSA's SPOT program 
in 2010. This report found that TSA deployed the program without first 
validating the scientific basis behind SPOT. GAO recommended that TSA 
conduct a validation study to prove the program's effectiveness. While 
TSA did conduct a study in 2011, GAO reported that with several design 
limitations, methodological issues, and faulty data collection, the 
results of the study were hindered. To date, TSA has been unable to 
show whether the program has helped in catching a single terrorist.
    This program costs the American taxpayer over $200 million per year 
and has already spent almost $900 million since its implementation. 
That's $900 million gambled away for a program that may or may not 
work. While I do believe that transportation security is of the utmost 
importance, I think it's time that we re-evaluate this costly program 
to be better stewards of taxpayer dollars. This is one of the reasons I 
voted in favor of Ranking Member Thompson's amendment to the Department 
of Homeland Security Appropriations Act for 2014 to prohibit the use of 
funds for the program. While this amendment ultimately failed, its 
intent was reaffirmed when GAO's recommendation called for the 
Secretary of Homeland Security to direct TSA to limit future funding 
for this program until TSA can provide scientifically validated 
evidence to support the effectiveness of SPOT.
    Additionally, not only has GAO examined the validity of this 
program, the Office of the Inspector General (OIG) of the Department of 
Homeland Security (DHS) issued a report in May ofthis year which also 
questioned the capabilities of SPOT. Based on the findings of their 
audit, the OIG determined that ``TSA cannot ensure that passengers at 
United States airports are screened objectively, show that the program 
is cost-effective, or reasonably justify the program's expansion.'' 
From this report and the GAO reports, it is obvious to me that there 
has an abundance of poor decision making that has cost millions of 
taxpayer dollars, and that is absolutely unacceptable.
    Deploying this program before knowing its effectiveness and then 
continuing to fund a faulty program on a yearly basis is illogical and 
irresponsible considering our Nation is buried in $17 trillion in debt. 
I hope this hearing today will bring answers as to what course of 
action TSA will take next and how taxpayer dollars will not be 
needlessly wasted.
    Finally, although I believe it is important to have a witness from 
the OIG's office to discuss their audit's findings, I find it 
questionable that the Office of the Inspector General provided Mr. 
Edwards to testify. While we have yet to see the results of the Senate 
Subcommittee's investigation or the on-going review being conducted by 
CIGIE, the nature of the allegations against Mr. Edwards are extremely 
serious. Mr. Edwards should have taken unpaid administrative leave 
until the findings of the investigations were completed. Instead, he 
has become a distraction to the important work of the Inspector 
General's office. The role of an IG in rooting out waste, fraud, and 
abuse demands a permanent leader with an untarnished reputation.

    Mr. Hudson. We are pleased to have a distinguished panel of 
witnesses before us today on this important topic. The 
witnesses' full written statements will appear in the hearing 
record.
    Our first witness, the Honorable John Pistole, has been the 
administrator of the Transportation Security Administration at 
the Department of Homeland Security since 2010. As TSA 
administrator, he oversees the management of approximately 
60,000 employees, the security operations of more than 450 
Federalized airports throughout the United States, the Federal 
Air Marshal Service, and the security for highways, railroads, 
ports, mass transit systems, and pipelines.
    You have a big job, sir, and I commend you for the job you 
are doing and appreciate your being here today.
    The Chairman now recognizes Mr. Pistole to testify.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Well, thank you, Chairman Hudson, Ranking 
Member Richmond, Ranking Member Thompson, and other 
distinguished Members of the committee. I appreciate the 
opportunity to be here today.
    Let me start off by expressing my deep appreciation to you, 
Chairman, and other Members of the committee who have expressed 
condolences on behalf of Transportation Security Officer 
Gerardo Hernandez and his family and the two other officers who 
were shot and wounded on November 1 there.
    There was a great outpouring on Tuesday at the memorial 
service that was held in Los Angeles by the city of Los 
Angeles, by the police, the law enforcement community pulling 
together and demonstrating support for Officer Hernandez's 
family and the two other officers and their families. So thank 
you for that, the expressions and condolences.
    But the bottom line is there are challenging times right 
now for members of TSA, TSA employees, especially those at LAX 
and Terminal 3, who have been directly affected by this, who 
have lost a well-liked and well-respected colleague, and so 
there is a lot of grieving going on.
    But I do want to commend the actions of the officers, the 
TSOs, and others at the checkpoint that day for their actions 
in helping move passengers away from the point of danger. In 
fact, the two officers who were injured, the air protection 
officer, Tony Grigsby, and then a screening training 
instructor, James Speer, were actually wounded because they 
probably stayed too long in the checkpoint helping an elderly 
gentleman away from the checkpoint, and they were shot as they 
were leaving the checkpoint as the shooter came up onto that 
upper level there.
    So we have had this tragic incident, and the question is, 
what is our response? Let me just outline, briefly, five things 
that we have done since November 1.
    Obviously, during the shooting, I convened a crisis action 
team meeting by senior leadership, among senior leadership at 
TSA, to assess what was going on even during the lockdown after 
the shooting and challenged the senior leadership team to come 
up with recommendations, both short-term and long-term, on what 
can be best done to protect transportation security officers at 
checkpoints around the country.
    We coordinated closely with airport law enforcement 
organizations around the country to deploy uniformed officers 
in and around checkpoints in a much more visible way in the 
hours and days following that. That is continuing.
    Third, we have redeployed a number of our VIPR teams, the 
Visible Intermodal Protection Response teams, to airports, 
again, for that response to and just the notion of having 
additional security officers protected with this additional 
show of force.
    Fourth, we have communicated frequently with the workforce 
regarding the events, because the absence of information is a 
concern. We have listened to their concerns, particularly at 
LAX, where I have visited twice now in the last 10 days, to 
hear their concerns and provide grief counselors, who--hundreds 
of TSOs have availed themselves of those services.
    Then, fifth, as was mentioned last Thursday, we convened a 
meeting at TSA headquarters of stakeholders both from the 
aviation sector writ large, law enforcement agencies, 
representatives from 30 different agencies, including the 
Aviation Security Advisory Council, the ASAC, basically to 
listen, to hear their views on what may happen or what may be 
some of the solutions as we look forward. So that review is on-
going, and I look forward to updating the committee and, 
obviously, getting input from all of the committee on possible 
steps that we can take.
    Second, the other issue that we are here for today is on 
the behavior detection officer program, SPOT, as it is referred 
to. The context has been referred to, but let me just emphasize 
that.
    So, over the last several years, both from this 
subcommittee, the full committee, and from the American people, 
there have been calls for TSA to use more common sense in how 
we go about doing things, to be less invasive--fewer pat-downs, 
fewer of the imaging machines that provide the graphic images. 
We have done those things. So that is what risk-based security 
is all about.
    We have taken 15 steps, including TSA PreCheck, which you 
mentioned, Mr. Chairman; Known Crewmember for pilots and flight 
attendants; the announcement we made yesterday expanding the 
partnership with DOD to allow DOD members to go through 
expedited screening around the country now; 75 and older, 12 
and under--all these initiatives to try to bring more common 
sense and less invasiveness into the process.
    One of those things we also do is what we call managed 
inclusion. As part of that, our behavior detection officers 
serve a key function. Just for example, on Monday this week, we 
had over 80,000 passengers around the country go through 
expedited physical screening because of behavior detection 
officers observing no suspicious behaviors, so 80,000 
passengers in 1 day.
    The other part of this is, under RBS, risk-based security, 
for the last 10 days we have actually met or exceeded the goal 
of 25 percent of the traveling public going through expedited 
physical screening on any given day. So the last 10 days we 
have met or exceeded that goal, which we had set for the end of 
the year.
    In closing, the GAO has done several studies recently on 
the BDO program. The 2010 review was very helpful to us in 
terms of recommending 11 different steps that we could take to 
strengthen and improve the program. We have implemented 10 of 
those. We are still working with GAO on the eleventh, but we 
recognize the significant work they have done. This most recent 
study, we do disagree with the conclusions but recognize some 
of the valid points.
    So we can and will strengthen the program. I commit to 
doing that. This initiative, though, is one that looks at 
intent and motivation rather than a prohibited item. So that's 
important. This looks at that.
    So defunding the program is not the answer. I would just 
say, if we did that, if Congress did that, what I can envision 
is there would be fewer passengers going through expedited 
screening, there would be increased pat-downs, there would be 
longer lines, and there would be more frustration by the 
traveling public.
    So I would like to work with the subcommittee and the full 
committee to strengthen this valuable program.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pistole follows:]
                 Prepared Statement of John S. Pistole
                           November 14, 2013
    Good morning Chairman Hudson, Ranking Member Richmond, and other 
Members of the committee. I appreciate the opportunity to appear before 
you today to discuss the Transportation Security Administration's (TSA) 
Behavior Detection and Analysis (BDA) Program.
    TSA is a high-performing counterterrorism agency with a dedicated 
workforce executing our mission around the clock and across the globe. 
To fulfill this vital mission, TSA employs a layered approach to 
security through state-of-the-art technologies, intelligence analysis 
and information sharing, behavior detection techniques, explosives 
detection canine teams, Federal Air Marshals, and a well-trained front-
line workforce, among other assets. All of these layers are essential 
to securing the Nation's transportation systems and improving the 
experience of the nearly 1.8 million air passengers who fly each day.
    While the technological equipment TSA deploys at the checkpoint is 
designed to detect prohibited items, the BDA program is broader in 
scope and is designed to detect unknown threats. Terrorists have used a 
variety of items to attempt to inflict harm to aircraft, including 
underwear and shoe bombs, liquid explosives, and toner-cartridge bombs. 
Consistent across all methods of attack, however, is the malicious 
intent of the actor. BDOs focus on behavioral indicators, rather than 
items. Since we cannot always predict the form evolving threats will 
take, BDOs provide a crucial layer of security. Over the last several 
years, BDOs have demonstrated that these techniques are an effective 
means of identifying people engaged in deceptive and/or illegal 
activity, and those who harbor a fear of discovery, all consistent with 
behaviors that might appear in individuals planning to do harm on board 
an aircraft. In 2012 there were 2,116 BDO screening referrals to law 
enforcement, which resulted in 30 boarding denials, 79 investigations 
by law enforcement entities, and 183 arrests.
             behavior detection and analysis (bda) program
    The BDA program utilizes non-invasive behavior detection techniques 
based on scientifically-validated behaviors to identify individuals who 
potentially pose a threat to the Nation's transportation network. These 
individuals are deemed potentially higher-risk and subjected to 
additional scrutiny by TSA. The program was formally established in 
2006 after 3 years of operational pilot testing. Today, TSA deploys 
more than 3,000 full-time Behavior Detection Officers (BDOs) in the 
aviation and surface transportation sectors, the latter through 
participation in Visible Intermodal Prevention and Response (VIPR) 
teams in surface modes of transportation.
    The BDA program identifies potentially high-risk individuals 
exhibiting behavior indicative of excessive fear or stress and re-
routes them for additional screening by looking for a combination of 
individual indicators that warrant follow-up. BDO observations and 
referrals are not dispositive of high-risk activity, but result in 
additional screening, similar to an Advanced Imaging Technology (AIT) 
alarm needing to be resolved. BDOs are trained to identify behavior 
cues that have been shown through research, science, and decades of 
domestic and international law enforcement experience to be reliable 
indicators and predictors of anomalous or suspicious behavior. BDOs 
engage in conversation with individuals displaying anomalous behaviors, 
looking at possible verbal cues indicative of a high-risk passenger and 
refer those individuals exhibiting such behavior for additional 
physical screening and/or to law enforcement.
                         scientific validation
    Behavior detection techniques have been an accepted practice for 
many years within the law enforcement, customs and border enforcement, 
defense, and security communities both in the United States and 
internationally. As a law enforcement professional with 30 years of 
experience, I can personally attest to the effectiveness of behavior 
detection principles. TSA has completed extensive studies in 
partnership with the Department of Homeland Security (DHS) Science and 
Technology Directorate (S&T) and the academic community to examine the 
validity of the BDA program. An S&T validation study in partnership 
with the American Institutes for Research (AIR) completed in 2011 
represents the most thorough and rigorous analysis of a behavioral 
screening program completed to date. The study included over 70,000 
random samples at 41 airports. Notably, the validation study found that 
TSA's behavior detection identifies high-risk travelers at a 
significantly higher rate than random screening. The study concludes 
that a high-risk traveler is 9 times more likely to be identified using 
behavioral detection versus random screening. The 2011 independent 
Screening of Passengers by Observation Techniques (SPOT) Validation 
Study Technical Advisory Committee composed of respected subject-matter 
experts from academia, law enforcement, and the intelligence community 
concurred with the study's main conclusion.\1\ Without behavior 
detection, TSA would have had to randomly subject over 50,000 more 
travelers to additional invasive screening to achieve the same results 
as did the BDOs during the time frame of the 2-year study.
---------------------------------------------------------------------------
    \1\ SPOT Validation Study Final Results: 2011 Technical Advisory 
Committee (TAC) Review Report, HumRRO, June 2011.
---------------------------------------------------------------------------
             international behavior detection partnerships
    TSA has long partnered with international counterparts to develop 
and strengthen behavior detection practices. In December 2011, TSA 
partnered with Canada, the European Civil Aviation Conference (ECAC), 
France, Switzerland, and the United Kingdom to create the Behavior 
Detection in Aviation Security Study Group (BDIAS-SG) to exchange 
operational and programmatic information and best practices between/
among BDIAS-SG Members in order to refine domestic programs. This 
framework facilitates the sharing and alignment of on-going research 
and science in the field of behavior detection, with a focus on 
validating the effectiveness and efficiency of behavior detection 
across cultures and identifying an optimal approach to behavior 
detection in the future. It also creates international awareness 
concerning the use of behavior detection as an aviation security 
measure through the production of non-sensitive outreach materials that 
clearly define behavior detection. The BDIAS-SG is also creating common 
tools for use by members and, in the future, regional governmental 
organizations or possibly industry to support countries/actors with 
robust security structures to build anomalous behavior detection 
capability tailored to the relevant domestic environment. This 
international exchange has been instrumental to the growth and 
validation of TSA's BDA program and has produced a framework and 
materials that will assist additional interested countries to establish 
their own behavior detection programs.
                          risk-based security
    The BDA program is a critical part of TSA's Risk-Based Security 
(RBS) efforts, which moves TSA's checkpoint screening away from a ``one 
size fits all'' approach to more effective security measures that use 
the best available intelligence to differentiate levels of screening 
based on risk. As concluded in a recent RAND National Defense Research 
Institute report, ``[T]here is current value and unrealized potential 
for using behavioral indicators as part of a system to detect 
attacks.''\2\ TSA behavior detection procedures, including 
observational assessments and the equally important verbal interaction 
with passengers, are an essential element in a dynamic, risk-based 
layered security system.
---------------------------------------------------------------------------
    \2\ Davis, P.K., Perry, W.L., Brown, R.A., Yeung, D, Roshan, P., 
and Voorhies, P. (2013). ``Using Behavioral Indicators to Help Detect 
Potential Violent Acts: A Review of the Science Base''. RAND 
Corporation, National Defense Research Institute.
---------------------------------------------------------------------------
    One key element in expanding RBS is the Managed Inclusion concept, 
which routes passengers into expedited screening lanes using passenger 
screening canine teams or sampling with explosives detection 
technologies to screen passengers and their belongings for explosives 
while BDOs assess passengers for suspicious behaviors. If the 
explosives detection teams do not alert on an individual and a BDO does 
not observe suspicious behavioral indicators, the individual may be 
eligible for expedited screening through a TSA PreCheck<SUP>TM</SUP> 
lane.
                 zero tolerance for unlawful profiling
    Racial profiling is not part of the TSA's BDA program and is not 
tolerated by TSA. Not only is racial profiling generally prohibited by 
Federal law and under Department and agency policy, but it is also an 
ineffective security tactic. TSA has zero tolerance for this kind of 
behavior and has taken several steps to reinforce the agency's 
nondiscrimination and anti-profiling policies with our workforce.
    The Standard Operating Procedures (SOPs) and training for TSA's BDA 
program, in coordination with the DHS Office of Civil Rights and 
Liberties (CRCL), provide clear instructions to ensure that referrals 
for additional screening are made based on specific observed behavioral 
criteria without regard to nationality, race, color, ethnicity, or 
religious affiliation. BDOs are required to complete a report 
documenting specific behaviors observed for each passenger identified 
for additional action. BDA program analysts audit these reports 
regularly to ensure that BDOs are employing techniques properly, 
including protecting any privacy information that results from a law 
enforcement referral.
    Additionally, BDOs are trained specifically in preventing race, 
ethnicity, or religious profiling, and in 2012, TSA reviewed and 
revised all training documents to underscore that unlawful profiling 
violates agency policy and anti-discrimination laws. BDOs are 
instructed to immediately notify management if they believe profiling 
has occurred. That instruction is reinforced during recurring training, 
shift briefs, employee counseling sessions, and other avenues. All BDOs 
and BDO training managers are required to take a pledge against 
unlawful profiling, and all TSA employees are required to take biannual 
DHS Notification and Federal Employee Anti-discrimination and 
Retaliation Act of 2002 (No FEAR Act) training that provides 
information to employees regarding rights and protections available 
under Federal antidiscrimination, whistleblower protection, and 
retaliation laws.
    TSA expects every member of the workforce, including BDOs, to 
report allegations of profiling to local management or directly to the 
TSA Office of Civil Rights and Liberties, Ombudsman and Traveler 
Engagement (CRL/OTE) or Office of Inspection (OOI) without fear of 
retaliation. TSA also modified its complaint reporting procedures to 
make it easier for travelers to report allegations of racial profiling 
through TSA's website or mobile phone app. If allegations do arise, TSA 
takes immediate steps to investigate the issue.
    In 2013, the DHS Office of Inspector General (OIG) conducted an 
investigation at the request of TSA into allegations that BDOs at Logan 
International Airport (BOS) in Boston, MA, racially profiled passengers 
in order to meet secondary inspection referral production quotas. In a 
Report of Investigation provided to TSA on August 22, 2013, DHS OIG 
stated there was no indication the BDOs at BOS racially profiled 
passengers.
         government accountability office (gao) recommendations
    TSA appreciates input and recommendations to enhance its programs 
including the GAO's feedback on the BDA Program. Its recommendations 
have led to significant improvements in program management and 
deployment, including the risk-based allocation mentioned above. In 
addition, GAO's comments on the behavior indicator set have helped 
shape TSA's efforts to strengthen detection and evaluation 
methodologies, including the following actions:
  <bullet> Condense and strengthen the behavior indicator list and 
        optimize the weights and protocols used, which will likely 
        result in significant changes to behavior detection procedures 
        and include a simplified scoring and referral process.
  <bullet> Explore additional performance metrics that could be used to 
        examine overall program effectiveness, individual and 
        combinations of indicator effectiveness, and reliability across 
        individuals and locations.
  <bullet> Incorporate more robust data collection and authentication 
        protocols similar to those used in TSA operational tests of 
        screening technologies in any future studies.
    While TSA appreciates GAO's partnership in improving the BDA 
program, we are concerned that its most recent report relies heavily on 
academic literature regarding the detection of individuals who are 
lying. The report, however, fails to recognize all of the available 
research or that S&T, which conducted a validation study with an 
independent review process, relied in part upon unpublished studies not 
included in literature reviews. It is important to note that TSA's 
behavior detection approach does not attempt to specifically identify 
persons engaging in lying; rather, it is designed to identify 
individuals who may be deemed high-risk based on objective behavioral 
indicators. The National Research Council's (NRC) 2008 report \3\ cites 
scientific evidence that supports this method.
---------------------------------------------------------------------------
    \3\ National Research Council (2008). Protecting individual privacy 
in the struggle against terrorists: A framework for assessment. 
National Academies Press, Washington, DC.
---------------------------------------------------------------------------
    Based on TSA's objective to identify individuals who may be deemed 
high-risk based on objective behavioral indicators, TSA believes the 
program should continue to be funded at current levels while the 
improvements outlined below are implemented.
                         future of the program
    Strong program management is critical to any program and this 
includes performance metrics, strategic planning, and quality assurance 
measures. The BDA program is currently undergoing rigorous review to 
further improve TSA's vital behavior detection capability, which is 
consistent with many of the OIG recommendations made in their May 2013 
report. Within 90 days of the report issuance, TSA closed half of the 
recommendations and is working on closing the remainder. Specifically, 
TSA has taken the following actions:
  <bullet> Strategic Planning and Performance Measurement.--Finalized a 
        strategic plan and performance measurement plan and began 
        implementing many of the objectives in these framework 
        documents.
  <bullet> Data Accuracy.--Implemented controls to ensure completeness, 
        accuracy, authorization, and validity of referral data entered 
        into the Performance Management Information System.
  <bullet> Training.--Implemented a plan to provide mandatory 
        recurrent/refresher training to all BDOs and BDO instructors. 
        In September 2013, The National Training Team Academy, which 
        trains BDO instructors, graduated a class of 25 trainers on 
        September 26. TSA also finalized a plan to assess BDO 
        instructor performance in required core competencies on a 
        regular basis.
  <bullet> Monitor and Evaluate BDO Activity.--Developed and 
        implemented an automated tool to help evaluate airports' use of 
        BDO resources.
  <bullet> Employee Engagement.--Implemented processes, including focus 
        groups, for identifying and addressing issues raised by the 
        workforce that may directly affect the success of the BDA 
        program.
    TSA anticipates optimized behavior detection procedures to begin 
testing by the third quarter of fiscal year 2014 using robust methods 
similar to the operational testing conducted in support of technology 
acquisitions. TSA should have sufficient information on the performance 
of the new processes to update the National behavior detection 
deployment strategy within 6 months of the commencement of the tests. 
Additionally, TSA has established an Optimization effort in partnership 
with S&T and academia, industry, and other Government and community 
stakeholders to enhance behavior detection principles and provide the 
tools to quantify its effective contribution to transportation 
security.
                               conclusion
    The Nation continues to face evolving threats to our transportation 
system, and TSA's BDA Program provides a critical security capability 
to defend against our adversaries. TSA appreciates the work of the GAO, 
DHS OIG, and this committee to identify opportunities to strengthen the 
program as we move forward. Our on-going progress demonstrates our 
continuing commitment to TSA's mission of securing our Nation's 
transportation systems in the most effective way. Thank you for the 
opportunity to appear before you today. I look forward to answering 
your questions.

    Mr. Hudson. Thank you, Administrator Pistole.
    Dr. Daniel Gerstein is the acting under secretary for 
science and technology at the Department of Homeland Security. 
Dr. Gerstein gained extensive experience in the security and 
defense sectors while serving in various positions in civilian 
government, uniform, and private industry. Before joining DHS, 
he served in the Office of the Secretary of Defense.
    Dr. Gerstein, I have to say, I am disappointed that you 
failed to comply with the committee rules for not submitting a 
written testimony, a written statement for the record. I 
believe this is your first appearance as acting under secretary 
for S&T. I am willing to waive this requirement, in 
consultation with the Ranking Member, rather than barring you 
from giving an oral presentation here today. But, again, please 
know that we are making a generous exception for you, and 
failure to submit a written statement impedes the oversight 
role of this committee because it prevents our ability to 
prepare and plan ahead. So I just ask for your cooperation in 
the future with getting those written statements in, in a 
timely manner.
    But, at this point, the Chairman does now recognize you to 
testify, sir. Thank you.

   STATEMENT OF DANIEL M. GERSTEIN, DEPUTY UNDER SECRETARY, 
SCIENCE AND TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Gerstein. Well, thank you, Mr. Chairman. Sorry for that 
indiscretion.
    Good morning, Chairman Hudson, Ranking Member Richmond, and 
other Members of the committee. I appreciate the opportunity to 
appear before you today with Administrator Pistole to discuss 
the collaboration between TSA and the Science and Technology 
Directorate. This collaboration occurs across a broad range of 
projects, including TSA's behavior detection and analysis 
capabilities.
    Let me emphasize from the outset that all of our efforts 
are ultimately designed to support TSA in their efforts to 
improve security effectiveness and passenger experience with 
transportation screening.
    During my opening remarks, I will develop three overarching 
themes.
    First, the SPOT program is part of a layered security 
system and must be considered within that context. It does not 
exist in isolation and, therefore, must be considered in terms 
of its incremental contribution to improving the overall 
probability of detection of persons that knowingly and 
intentionally attempt to defeat the security process.
    Relying on any single process, technology, or capability is 
not an acceptable strategy. This layered security system 
consists of several opportunities to screen passengers and 
verify travel documentation. Checks are done when a passenger 
purchases a ticket and obtains a boarding pass. Behavior 
detection officers and canine units check for hostile intent or 
threatening materials, respectively. Carry-on items and checked 
bags are also screened before they are allowed in the terminal 
area.
    Past this stage, TSA has unpredictable protocols on planes, 
Federal air marshals, and trained flight crews to identify and 
mitigate any incidents or threats. The focus of all this 
activity is to increase the probability of detection of a 
person trying to defeat the security process.
    Second, the underlying concepts employed in the SPOT 
program are based on scientific research and represent the best 
practices from defense, intelligence, and law enforcement 
organizations. These practices have become accepted based on 
years of experience in these fields in attempting to identify 
persons that should receive additional scrutiny in the 
screening process.
    What the SPOT process does that has not been done 
previously is to methodically identify and assess a broad range 
of behavioral characteristics and provide a scoring system that 
adds a structure to the intuitive and highly subjective 
processes that many have relied on in the past.
    As part of the SPOT effort in 2009, S&T, at the request of 
TSA, initiated a research program to assess the validity of 
existing screening protocols and indicators. S&T contracted 
with American Institutes for Research, or AIR, one of the 
Nation's largest nonprofit behavioral research organizations, 
to design and execute an independent assessment. The primary 
finding was that the SPOT identified high-risk travelers at a 
significantly higher rate--on average, nine times more often--
than random screening.
    In considering the use of behavioral indicators, it is 
worth noting that a number of other governments--Australia, 
Canada, France, Israel, Switzerland, United Kingdom, to name a 
few--have developed and deployed behavior detection screening 
protocols. I have personally toured the facilities and received 
briefings on the use of behavior detection in Australia and 
Israel.
    We do recognize that the results of the study must be 
considered in the context of the limitations that are described 
in detail in the SPOT validation report. We identified many of 
these limitations. Nonetheless, we believe that the sampling 
and measurement errors that are cited are due to limitations, 
and they are relatively minimal, given the study's design 
features that included a large sample, multiple outcomes around 
important population parameter estimates. S&T does agree with 
the primary context of the study's design limitations and 
recommendations for additional research.
    Furthermore, additional research efforts, both laboratory 
and field studies, that could be conducted would include a more 
extensive examination of the underlying behavioral construct, 
an indicator optimization study, a comprehensible reliability 
study, and an empirical comparison of SPOT with other screening 
programs. Some of these efforts are on-going at TSA today, 
although S&T is not involved in those study efforts.
    My third and final point concerns current collaboration 
between TSA and S&T. In this regard, our relationship has never 
been stronger. This can be seen through objective measures as 
well as anecdotal information.
    In fiscal year 2013, S&T conducted R&D supporting TSA 
requirements on 19 projects, for a total of $108 million. 
Additionally, we continue to work with TSA on examining 
checkpoint operations in order to determine how combinations of 
technological developments, use of knowledge products, business 
process reform, and other capabilities can holistically be 
employed in a synergistic manner to enhance checkpoints two to 
three times their capability over the next 3- to 5-year period. 
This could significantly enhance security operations, boost 
effectiveness, efficiency, and substantially improve customer 
experience at checkpoints.
    Finally, S&T appreciates the opportunity to work with TSA, 
the GAO, and this committee on questions surrounding the 
behavioral detection program and, more broadly, improving 
performance of existing and emerging operational screening 
programs.
    I thank you again for this opportunity before you today and 
for allowing me to present oral remarks.
    [The prepared statement of Mr. Gerstein follows:]
                Prepared Statement of Daniel M. Gerstein
                           November 14, 2013
    Good morning Chairman Hudson, Ranking Member Richmond, and other 
Members of the committee. I appreciate the opportunity to appear before 
you today with TSA administrator John Pistole to discuss the 
collaboration between TSA and the Science and Technology (S&T) 
Directorate. This collaboration occurs across a broad range of projects 
including the TSA's behavior detection and analysis capabilities. Let 
me emphasize from the outset that all of our efforts are ultimately 
designed to support TSA in their efforts to improve in both security 
effectiveness and passenger experience with transportation screening.
    During my opening remarks, I will develop three overarching themes. 
First, the SPOT program is part of a layered security system and must 
be considered in that context. It does not exist in isolation and 
therefore must be considered in terms of its incremental contribution 
to improving the overall probability of detection of persons that 
knowingly and intentionally attempt to defeat the security process. 
Relying on any single process, technology, or capability is not an 
acceptable strategy. This layered security system consists of several 
opportunities to screen passengers and verify travel documentation. 
Checks are done when a passenger purchases a ticket and obtains a 
boarding pass. Behavior Detection Officers (BDOs) and canine units 
check for hostile intent or threatening materials, respectively. Carry-
on items and checked bags are also screened for threats before being 
allowed in the terminal area. Past this stage, TSA still has 
unpredictable protocols and on the plane, Federal Air Marshalls and 
trained Flight Crews to identify and mitigate any incidents or threats. 
The focus of all this activity is to increase the probability of 
detection of a person trying to defeat the security process.
    Second, the underlying concepts employed within the SPOT program 
are based on scientific research and represent the best practices from 
defense, intelligence, and law enforcement organizations. These 
practices have become accepted based on years of experience in these 
fields in attempting to identify persons that should receive additional 
scrutiny in a screening process. What the SPOT process does--that has 
not been previously done--is to methodically identify and assess a 
broad range of behavioral characteristics and provide a scoring system 
that adds a structure to the intuitive and highly subjective processes 
that many have relied on in the past. As part of the SPOT effort in 
2007, S&T--at the request of TSA--initiated a research program to 
assess the validity of the existing screening protocol and indicators. 
S&T contracted with the American Institutes for Research or AIR, one of 
the Nation's largest non-profit behavioral research organizations, to 
design and execute an independent assessment of the extent to which 
using SPOT led to correct screening decisions at security checkpoints. 
The resulting field study compared over 71,000 (71,589) random 
referrals with over 23,000 (23,265) Operational SPOT referrals 
collected over 9 months from December 2009 through October 2010 across 
43 airports. The primary finding was that Operational SPOT identified 
high-risk travelers at a significantly higher rate--on average, 9 times 
more often--than random screening.
    In considering the use of behavioral indicators, it is worth noting 
that a number of foreign Governments--Australia, Canada, France, 
Israel, Switzerland, and United Kingdom to name a few--have developed 
and deployed behavior-based screening protocols supporting aviation and 
mass transit environments. I have personally toured the facilities and 
received briefings on the use of behavior detection operations in 
Australia and Israel.
    We do recognize that the results of this field study must be 
considered in the context of its limitations that are described in 
detail in the SPOT Validation Final Report. Many of these limitations 
are inherent in operational field research in general and in the 
examination of security programs in particular. These limitations 
potentially introduced some degree of uncontrolled error in the 
validation analysis; thus, results should be considered in this context 
and additional research should be conducted. Nonetheless, sampling and 
measurement error due to these limitations are believed to be 
relatively minimal, given the study's design features that included a 
large sample, multiple outcome measures, and sensitivity analyses 
around important population parameter estimates. S&T agrees with the 
primary finding within the context of the study's design limitations 
and recommendations that additional research would be required to more 
fully validate the SPOT Referral Report.
    Furthermore, additional research efforts, both laboratory and field 
studies, could be conducted that would include a more extensive 
examination of the underlying behavioral construct, an indicator-level 
optimization study, a comprehensive reliability study, and an empirical 
comparison of SPOT with other screening programs. Findings suggest that 
there may be potentially other indicators not presently included in 
SPOT that may assist in identifying high-risk passengers. As a result, 
S&T believes that research could be conducted to broaden the range of 
potential indicators beyond those contained in the existing SPOT 
Referral Report would be very useful. S&T had also recommended 
conducting analyses to empirically compare TSA's SPOT protocol with 
other operational screening and suspicious behavior detection 
protocols.
    My third point concerns current collaboration between TSA and S&T. 
In this regard our relationship has never been stronger. This can be 
seen through objective measures as well as anecdotal information. In 
fiscal year 2013, S&T conducted research and development supporting TSA 
requirements on 19 projects for a total of $108 million. Additionally, 
we continue to work with TSA on examining checkpoint operations in 
order to determine how the combinations of technological developments, 
use of knowledge products, business process reforms and other security 
capabilities can be holistically employed in a synergistic manner to 
enhance throughput at checkpoints 2 to 3 times over the next 3-5-year 
period. This could significantly enhance security operations, boosting 
effectiveness, efficiency, and substantially improving passenger 
experience at checkpoints.
    S&T appreciates the opportunity to work with TSA, GAO, and this 
committee on questions surrounding the behavioral detection program and 
more broadly to assist with establishing performance baselines and 
conducting research and development to improve the performance of 
existing and emerging operational programs.
    Thank you for the opportunity to appear before you today. I look 
forward to answering your questions.

    Mr. Hudson. Thank you.
    Mr. Stephen Lord is the managing director of the Forensic 
Audits and Investigative Service team at the Government 
Accountability Office. In this capacity, Mr. Lord oversees 
high-quality forensic audits and investigations of fraud, 
waste, and abuse.
    We are pleased to have you before the subcommittee again, 
Mr. Lord. The Chairman now recognizes you to testify.

   STATEMENT OF STEPHEN M. LORD, MANAGING DIRECTOR, FORENSIC 
  AUDITS AND INVESTIGATIVE SERVICE, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Lord. Thank you, Chairman Hudson, Ranking Member 
Richmond, as well as Ranking Member Thompson. I am really happy 
to be here today to discuss the findings of our new report, 
just released yesterday, on TSA's behavior detection program.
    The recent events at LAX provide an unfortunate reminder of 
the important role that TSA plays in providing security at 
airports. I would first like to preface my comments by noting 
that I do agree with Mr. Pistole in two important areas: That 
it is important that TSA adopt a risk-based approach to ensure 
resources are focused in the areas of the highest need and 
potential; and also focusing on screening for potential bad 
actors and moving away from screening for prohibited items and 
objects, or ensuring sufficient resources are devoted to that.
    The question I am hoping today's hearing can answer: What 
is the best way to do that?
    This is an important issue, as TSA has spent $900 million 
on the so-called SPOT program since 2007. Today I would like to 
highlight two important issues from a recent report: First, 
research supporting the use of behavior indicators to identify 
threats; and, second, whether TSA has the data necessary to 
really assess the effectiveness of its program.
    A first key point is the research completed to date, both 
public and non-public, does not clearly show whether behavior 
indicators can be used to reliably identify threats to aviation 
security--that is, to identify deception or mal-intent. 
Hundreds of studies we reviewed completed over the last 60 
years showed that the ability of humans to accurately identify 
deception based on behaviors is the same or roughly--
essentially the same as chance, slightly greater than chance, 
54 percent.
    Moreover, DHS's 2011 validation study of the program, while 
we view it as a very important initial step, had several design 
limitations. Therefore, you have to be very cautious about 
using any of the findings. In fact, the study itself made 13 
additional recommendations to ensure reliability and validity 
moving forward.
    Also, the study relied on a database that we found in our 
prior work was unreliable for conducting the statistical 
analysis of associations between behaviors and desired 
outcomes. One key weakness was the database only allowed BDOs 
to enter a certain number of behaviors, even though, as you 
probably know, the behavior detection officers are trained to 
identify 94 separate indicators.
    In addition, when we visited airports, we interviewed the 
behavior detection officers, and they wholeheartedly agree some 
of these indicators are subjective and difficult to interpret. 
This is clearly evident in the data we reviewed. For example, 
we found that passenger referral rates--that is the rate 
passengers are pulled out of line for subsequent screening--
ranged from 0 to 26 passenger referrals per month for the 
average behavior detection officer. The average rate on an 
overall basis was 1.6 referrals a month. So, anyway, when we 
saw this variation, it really raised questions in our mind 
about the usefulness of these indicators and whether the 
officers can consistently interpret them.
    We also found that TSA has limited information to evaluate 
the effectiveness of the program. Well, the good news is they 
are taking major steps as we speak to help them craft better 
performance measures. The good news is they plan to develop 40 
metrics, 40 performance metrics, within 3 broad categories. I 
think this is really going to help them gain valuable insights 
into the program, especially on the performance of individual 
BDOs, and also ensure they are more consistently applying these 
techniques across passengers. The bad news is, of course, they 
are going to need 3 more years to do this. This is something we 
discuss in more detail in our report.
    In closing, it does not appear that behavioral indicators 
can be reliably used to identify individuals who might pose a 
threat to aviation, and that continues to concern us. Although 
TSA is still in the process of evaluating the effectiveness of 
the program, I think it is important to note that they first 
started deploying this in 2007. Typically you validate a 
concept first, then deploy. TSA chose, which, you know, they 
are free to choose, a strategy which I deem higher risk: They 
deployed at the same time they were validating.
    This is one of the reasons we are recommending that TSA 
limit future funding to the program until they can develop 
additional empirical evidence that these indicators can be used 
in a reliable manner.
    I know TSA believes very strongly in the program. We 
interviewed people at all levels of the agency. They are 
working hard to make it work. They have faith it works. They 
have hope it works. But, again, from a GAO standpoint, the 
program should be based on sound, empirical evidence and not 
hope and faith alone.
    Mr. Chairman, this concludes my remarks. I look forward to 
any questions you have. Thank you.
    [The prepared statement of Mr. Lord follows:]
                 Prepared Statement of Stephen M. Lord
                           November 14, 2013
   aviation security.--tsa should limit future funding for behavior 
                          detection activities
                              gao-14-158t
    Chairman Hudson, Ranking Member Richmond, and Members of the 
Subcommittee: I am pleased to be here to discuss the findings of our 
November 2013 report assessing the Department of Homeland Security 
(DHS) Transportation Security Administration's (TSA) behavior detection 
activities, specifically the Screening of Passengers by Observation 
Technique (SPOT) program.\1\ The recent events at Los Angeles 
International Airport provide an unfortunate reminder of TSA's 
continued importance in providing security for the traveling public. 
TSA's behavior detection activities, in particular the SPOT program, 
are intended to identify high-risk passengers based on behavioral 
indicators that indicate mal-intent. In October 2003, TSA began testing 
the SPOT program, and by fiscal year 2012, about 3,000 behavior 
detection officers (BDO) had been deployed to 176 of the more than 450 
TSA-regulated airports in the United States. TSA has expended a total 
of approximately $900 million on the program since it was fully 
deployed in 2007.
---------------------------------------------------------------------------
    \1\ GAO, Aviation Security: TSA Should Limit Future Funding for 
Behavior Detection Activities, GAO-14-159 (Washington, DC: Nov. 8, 
2013).
---------------------------------------------------------------------------
    Through the SPOT program, TSA's BDOs are to identify passenger 
behaviors indicative of stress, fear, or deception and refer passengers 
meeting certain criteria for additional screening of their persons and 
carry-on baggage. During SPOT referral screening, if passengers exhibit 
additional behaviors, or if other events occur, such as the discovery 
of a suspected fraudulent document, BDOs are to refer these passengers 
to a law enforcement officer (LEO) for further investigation--known as 
a LEO referral--which could result in an arrest, among other outcomes. 
In May 2010, we reported, among other things, that TSA deployed the 
SPOT program without validating the scientific basis for identifying 
passengers who may pose a threat, TSA was experiencing implementation 
challenges at airports, and the SPOT program lacked performance 
measures.\2\ We recommended in our 2010 report that DHS take several 
actions to address these findings, with which DHS generally concurred 
and implemented. Specifically, TSA has taken action on all of the 11 
recommendations we made, and as of October 2013, has fully implemented 
10 of them.
---------------------------------------------------------------------------
    \2\ GAO, Aviation Security: Efforts to Validate TSA's Passenger 
Screening Behavior Detection Program Underway, but Opportunities Exist 
to Strengthen Validation and Address Operational Challenges, GAO-10-763 
(Washington, DC: May 20, 2010).
---------------------------------------------------------------------------
    My testimony today highlights the key findings of our November 8, 
2013, report on TSA's behavior detection activities. Specifically, like 
the report, my statement will address: (1) The extent to which 
available evidence supports the use of behavioral indicators to 
identify aviation security threats, and (2) whether TSA has data 
necessary to assess the effectiveness of the SPOT program in 
identifying threats to aviation security.
    For the report, we reviewed academic and Government research on 
behavior-based deception detection. We also reviewed documentation 
related to DHS's April 2011 SPOT validation study, including study 
protocols and the final reports, and assessed the study against 
established practices for evaluation design and generally accepted 
statistical principles.\3\ In addition, we interviewed program managers 
at TSA headquarters, and a nongeneralizeable sample of 25 randomly-
selected BDOs at four airports where SPOT was implemented in fiscal 
years 2011 and 2012. We analyzed fiscal years 2011 and 2012 data from 
the SPOT program, TSA, and the National Finance Center to determine the 
extent to which SPOT referrals varied across airports and across BDOs 
with different characteristics. We also reviewed documentation 
associated with program oversight, including a November 2012 
performance metrics plan. Our November 2013 report provides further 
details on our scope and methodology.\4\ We conducted this work in 
accordance with generally accepted Government auditing standards.
---------------------------------------------------------------------------
    \3\ GAO, Designing Evaluations: 2012 Revision, GAO-12-208G 
(Washington, DC: Jan. 31, 2012). This publication supersedes Government 
Operations: Designing Evaluations, GAO/PEMD-10.1.4 (Washington, DC: May 
1, 1991).
    \4\ GAO-14-159.
---------------------------------------------------------------------------
 available evidence does not support whether behavioral indicators can 
             be used to identify aviation security threats
    In November 2013, we reported that: (1) Peer-reviewed, published 
research we reviewed did not support whether nonverbal behavioral 
indicators can be used to reliably identify deception, (2) 
methodological issues limited the usefulness of DHS's April 2011 SPOT 
validation study, and (3) variation in referral rates raised questions 
about the use of indicators.
Published Research on Behavioral Indicators
    In November 2013, we reported that our review of meta-analyses 
(studies that analyze other studies and synthesize their findings) that 
included findings from over 400 studies related to detecting deception 
conducted over the past 60 years, other academic and Government 
studies, and interviews with experts in the field, called into question 
the use of behavior observation techniques, that is, human observation 
unaided by technology, as a means for reliably detecting deception. The 
meta-analyses we reviewed collectively found that the ability of human 
observers to accurately identify deceptive behavior based on behavioral 
cues or indicators is the same as or slightly better than chance (54 
percent).\5\ We also reported on other studies that do not support the 
use of behavioral indicators to identify mal-intent or threats to 
aviation.\6\ In commenting on a draft of our November 2013 report, DHS 
stated that one of these studies, a 2013 RAND report, provides evidence 
that supports the SPOT program.\7\ However, the RAND report, which 
concludes that there is current value and unrealized potential for 
using behavioral indicators as part of a system to detect attacks, 
refers to behavioral indicators that are defined and used significantly 
more broadly than those in the SPOT program.\8\ The indicators reviewed 
in the RAND report are not used in the SPOT program, and, according to 
the RAND report's findings, could not be used in real time in an 
airport environment.\9\
---------------------------------------------------------------------------
    \5\ M. Hartwig and C.F. Bond, Jr., ``Why Do Lie-Catchers Fail? A 
Lens Model Meta-Analysis of Human Lie Judgments,'' Psychological 
Bulletin, vol. 137, no. 4 (2011); C.F. Bond, Jr., and B.M. DePaulo, 
``Accuracy of Deception Judgments,'' Personality and Social Psychology 
Review, vol. 10, no. 3 (2006); M.A. Aamodt and H. Custer, ``Who Can 
Best Catch a Liar? A Meta-Analysis of Individual Differences in 
Detecting Deception,'' The Forensic Examiner, 15(1) (Spring 2006); and, 
B.M. DePaulo, J.J. Lindsay, B.E. Malone, L. Mehlenbruck, K. Charlton, 
and H. Cooper, ``Cues to Deception,'' Psychological Bulletin, vol. 129, 
no. 1 (2003). The first three meta-analyses found, among other things, 
that the accuracy rate for detecting deception was an average of 54 
percent. The fourth meta-analysis found that there were no effect sizes 
that differed significantly from chance.
    \6\ These studies included P.K. Davis, W.L. Perry, R.A. Brown, D. 
Yeung, P. Roshan, and P. Voorhies, Using Behavioral Indicators to Help 
Detect Potential Violent Acts: A Review of the Science Base. (Santa 
Monica, California: RAND Corporation, 2013); National Research Council, 
Protecting Individual Privacy in the Struggle Against Terrorists: A 
Framework for Assessment (Washington, DC: National Academies Press, 
2008); JASON, The MITRE Corporation, S. Keller-McNulty, study leader, 
The Quest for Truth: Deception and Intent Detection, a special report 
prepared for the U.S. Department of Defense, October 2008. For a 
complete list, see GAO-14-159.
    \7\ Davis and others, Using Behavioral Indicators to Help Detect 
Potential Violent Acts: A Review of the Science Base.
    \8\ Davis and others, Using Behavioral Indicators to Help Detect 
Potential Violent Acts: A Review of the Science Base. In its discussion 
of behavioral indicators, the RAND report includes indicators from 
``pattern-of-life data''--such as mobile device tracking and monitoring 
on-line activity--that can indicate changes in lifestyle patterns, as 
well as communication patterns and physiological indicators.
    \9\ For example, the RAND report states that coding emotional 
expressions for use in scientific studies currently involves a 
painstaking process of a frame-by-frame analysis in which hours of 
labor are required to analyze seconds of data, and accordingly, the 
RAND report found that the process would be too burdensome to use in 
real time at checkpoints or other screening areas. The RAND report also 
states that technologies to recognize and analyze such emotional 
expressions are in their infancy.
---------------------------------------------------------------------------
DHS's Validation Study
    Further, in November 2013, we found that DHS's April 2011 
validation study does not demonstrate effectiveness of the SPOT 
behavioral indicators because of methodological weaknesses. The 
validation study found, among other things, that some SPOT indicators 
were predictive of outcomes that represent high-risk passengers, and 
that SPOT procedures, which rely on the SPOT behavioral indicators, 
were more effective than a random selection protocol implemented by 
BDOs in identifying outcomes that represent high-risk passengers. While 
the April 2011 SPOT validation study is a useful initial step and, in 
part, addressed issues raised in our May 2010 report, methodological 
weaknesses limit its usefulness. Specifically, as we reported in 
November 2013, these weaknesses include, among other things, the use of 
potentially unreliable data and issues related to one of the study's 
outcome measures.
    First, the data the study used to determine the extent to which the 
SPOT behavioral indicators led to correct screening decisions at 
checkpoints were from the SPOT database that we had previously found in 
May 2010 to be potentially unreliable.\10\ In 2010, we found, among 
other things, that BDOs could not record all behaviors observed in the 
SPOT database because the database limited entry to 8 behaviors, 6 
signs of deception, and 4 types of serious prohibited items per 
passenger referred for additional screening, though BDOs are trained to 
identify 94 total indicators.\11\ Although TSA made changes to the 
database subsequent to our May 2010 report, the validation study used 
data that were collected from 2006 through 2010, prior to TSA's 
improvements to the SPOT database. Consequently, the data were not 
sufficiently reliable for use in conducting a statistical analysis of 
the association between the indicators and high-risk passenger 
outcomes.
---------------------------------------------------------------------------
    \10\ GAO-10-763. The validation study analyzed data collected from 
2006 through 2010 to determine the extent to which the indicators could 
identify high-risk passengers.
    \11\ The 2011 SPOT standard operating procedures lists 94 signs of 
stress, fear, and deception, or other related indicators that BDOs are 
to look for, each of which is assigned a certain number of points.
---------------------------------------------------------------------------
    Second, our analysis of the validation study data regarding one of 
the primary high-risk outcome measures--LEO arrests--suggests that the 
screening process was different for passengers depending on whether 
they were selected using SPOT procedures or the random selection 
protocol. Specifically, different levels of criteria were used to 
determine whether passengers in each group were referred to a LEO, 
which is a necessary precondition for an arrest. Because of this 
discrepancy between the study groups, the results related to the LEO 
arrest metric are questionable and cannot be relied upon to demonstrate 
the effectiveness of the SPOT program's behavioral indicators. In 
November 2013, we also reported on other methodological weaknesses, 
including design limitations and monitoring weaknesses, that could have 
affected the usefulness of the validation study's results in 
determining the effectiveness of the SPOT program's behavioral 
indicators.
Variation in Referral Rates and TSA Efforts to Study Indicators
    In November 2013, we reported that variation in referral rates and 
subjective interpretation of the behavioral indicators raise questions 
about the use of indicators, but TSA has efforts under way to study the 
indicators. Specifically, we found that SPOT referral data from fiscal 
years 2011 and 2012 indicate that SPOT and LEO referral rates vary 
significantly across BDOs at some airports, which raises questions 
about the use of SPOT behavioral indicators by BDOs.\12\ The rate at 
which BDOs referred passengers for SPOT referral screening ranged from 
0 to 26 referrals per 160 hours worked during the 2-year period we 
reviewed.\13\ Similarly, the rate at which BDOs referred passengers to 
LEOs ranged from 0 to 8 per 160 hours worked.\14\ In November 2013, we 
also reported that BDOs and TSA officials we interviewed said that some 
of the behavioral indicators are subjective and TSA has not 
demonstrated that BDOs can consistently interpret the behavioral 
indicators. We found that there is a statistically significant 
relationship between the length of time an individual has been a BDO 
and the number of SPOT referrals the individual makes. This suggests 
that different levels of experience may be one reason why BDOs apply 
the behavioral indicators differently. TSA has efforts underway to 
better define the behavioral indicators currently used by BDOs, and to 
complete an inter-rater reliability study. The inter-rater reliability 
study could help TSA determine whether BDOs can consistently and 
reliably interpret the behavioral indicators, which is a critical 
component of validating the SPOT program's results and ensuring that 
the program is implemented consistently. According to TSA, the current 
contract to study the indicators and the inter-rater reliability study 
will be completed in 2014.
---------------------------------------------------------------------------
    \12\ Up to three BDOs may be associated with a referral in the SPOT 
referral database. According to TSA officials, the BDO in the ``team 
member 1'' field is generally the primary BDO responsible for observing 
the behaviors required for a referral. To avoid double-counting 
referrals, the referral rate is based on the number of referrals for 
which a BDO was identified as team member 1. For additional information 
see GAO-14-159.
    \13\ Specifically, we reported that variation exists in the SPOT 
referral rates among 2,199 nonmanager BDOs and across the 49 airports 
in our November 2013 review, after standardizing the referral data to 
take account of the differences in the amount of time each BDO spent 
observing passengers. We standardized the SPOT referral and arrest data 
across the 49 airports to ensure an accurate comparison of referral 
rates, based on the number of hours each BDO spent performing 
operational SPOT activities. For a complete description of our 
methodology, see GAO-14-159.
    \14\ The average SPOT referral rate across the 2,199 BDOs who 
conducted SPOT at the airports in our November 2013 review was 1.6 
referrals per 160 hours worked. Thus, on average, 0.2 percent of a 
BDO's time, or roughly the equivalent of 1 work day over a 2-year 
period, was spent engaging passengers during SPOT referral screening. 
This calculation is based on TSA's estimate that a BDO requires an 
average of 13 minutes to complete a SPOT referral. The average LEO 
referral rate for BDOs who conducted SPOT at these airports was 0.2 per 
160 hours worked, or 1 LEO referral every 800 hours (or approximately 
20 weeks).
---------------------------------------------------------------------------
tsa has limited information to evaluate spot program effectiveness, but 
              plans to collect additional performance data
    In November 2013, we reported that TSA plans to collect and analyze 
additional performance data needed to assess the effectiveness of its 
behavior detection activities. In response to a recommendation in our 
May 2010 report to develop a plan for outcome-based performance 
measures, TSA completed a performance metrics plan in November 
2012.\15\ The plan defined an ideal set of 40 metrics within three 
major categories that TSA needs to collect to measure the performance 
of its behavior detection activities. As of June 2013, TSA had 
collected some information for 18 of 40 metrics the plan identified, 
but the agency was collecting little to none of the data required to 
assess the performance and security effectiveness of its behavior 
detection activities or the SPOT program specifically. For example, TSA 
did not and does not currently collect the data required to determine 
the number of passengers meaningfully assessed by BDOs, BDOs' level of 
fatigue, or the impact that fatigue has on their performance.
---------------------------------------------------------------------------
    \15\ GAO-10-763. Specifically, we recommended that TSA ``establish 
a plan that includes objectives, milestones, and time frames to develop 
outcome-oriented performance measures to help refine the current 
methods used by BDOs for identifying individuals who may pose a risk to 
the aviation system.''
---------------------------------------------------------------------------
    To address these and other deficiencies, the performance metrics 
plan identifies 22 initiatives that are under way or planned as of 
November 2012. For example, in May 2013, TSA began to implement a new 
data collection system, BDO Efficiency and Accountability Metrics, 
designed to track and analyze BDO daily operational data, including BDO 
locations and time spent performing different activities. According to 
TSA officials, these data will allow the agency to gain insight on how 
BDOs are utilized, and improve analysis of the SPOT program. However, 
according to the performance metrics plan, TSA will require at least an 
additional 3 years and additional resources before it can begin to 
report on the performance and security effectiveness of its behavior 
detection activities or the SPOT program.
    Without the data needed to assess the effectiveness of behavior 
detection activities or the SPOT program, we reported in November 2013 
that TSA uses SPOT referral, LEO referral, and arrest statistics to 
help track the program's activities. As shown in figure 1, of the 
approximately 61,000 SPOT referrals made during fiscal years 2011 and 
2012 at the 49 airports we analyzed, approximately 8,700 (13.6 percent) 
resulted in a referral to a LEO. Of the SPOT referrals that resulted in 
a LEO referral, 365 (4 percent) resulted in an arrest.\16\
---------------------------------------------------------------------------
    \16\ The SPOT database identifies six reasons for arrest, 
including: (1) Fraudulent documents, (2) illegal alien, (3) other, (4) 
outstanding warrants, (5) suspected drugs, and (6) undeclared currency. 
The proportion of LEO referrals that resulted in an arrest (arrest 
ratio) could be an indicator of the potential relationship between the 
SPOT behavioral indicators and the arrest outcome measure because an 
individual must display multiple SPOT behavioral indicators, or have 
other events occur, such as the discovery of a fraudulent document, for 
a LEO referral to occur. If the behavioral indicators were indicative 
of a threat to aviation security, a larger proportion of the 
individuals referred to a LEO may ultimately be arrested. However, the 
arrest ratios per airport ranged from 0 to 17 percent. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    TSA has taken a positive step toward determining the effectiveness 
of its behavior detection activities by developing the performance 
metrics plan, as we recommended in May 2010. However, as we reported in 
November 2013, TSA cannot demonstrate the effectiveness of its behavior 
detection activities, and available evidence does not support whether 
behavioral indicators can be used to identify threats to aviation 
security. According to Office of Management and Budget (OMB) guidance 
accompanying the fiscal year 2014 budget, it is incumbent upon agencies 
to use resources on programs that have been rigorously evaluated and 
determined to be effective, and to fix or eliminate those programs that 
have not demonstrated results.\17\ As we concluded in our November 2013 
report, until TSA can provide scientifically validated evidence 
demonstrating that behavioral indicators can be used to identify 
passengers who may pose a threat to aviation security, the agency risks 
funding activities that have not been determined to be effective. 
Therefore, in our November 2013 report, we recommended that TSA limit 
future funding for its behavior detection activities. DHS did not 
concur with our recommendation.
---------------------------------------------------------------------------
    \17\ OMB, Analytical Perspectives--Budget of the U.S. Government, 
Fiscal Year 2014. ISBN 978-0-16--1749-3 (Washington, DC: 2013).
---------------------------------------------------------------------------
    In commenting on a draft of our November 2013 report, DHS 
identified two main areas where it disagreed with information presented 
in the report: (1) The findings related to the SPOT validation study, 
and (2) the findings related to the research literature. With regard to 
the findings related to the SPOT validation study, DHS stated that, 
among other issues, our methodology for replicating the study's 
indicator analysis introduced error and resulted in ``misleading'' 
conclusions. We disagree with this statement. Our analysis was 
consistent in finding that some indicators were positively and 
significantly related to the validation study outcome measures; 
however, we also found that a roughly equal number of indicators were 
negatively and significantly related to the outcome measures--a finding 
that the validation study did not report.\18\ Further, as discussed in 
the November 2013 report, the validation study's analysis used 
unreliable data, which limits the usefulness of the study's findings. 
With regard to our findings related to the research literature, DHS 
stated that, among other things, we did not consider all the research 
that was available. However, as described in the report, in addition to 
the meta-analyses of over 400 studies related to detecting deception 
conducted over the past 60 years that we reviewed, we also reviewed 
several documents on behavior detection research that DHS officials 
provided to us, including documents from an unclassified and a 
classified literature review that DHS had commissioned.
---------------------------------------------------------------------------
    \18\ The negatively and significantly related indicators were more 
commonly associated with passengers who were not identified as high-
risk, than with passengers who were identified as high-risk.
---------------------------------------------------------------------------
    Finally, in stating its nonconcurrence with the recommendation to 
limit future funding in support of its behavior detection activities, 
DHS stated that TSA's overall security program is composed of 
interrelated parts, and to disrupt one piece of the multi-layered 
approach may have an adverse impact on other pieces. As we reported in 
November 2013, TSA has not developed the performance measures that 
would allow it to assess the effectiveness of its behavior detection 
activities compared with other screening methods, such as physical 
screening. As a result, the impact of behavior detection activities on 
TSA's overall security program is unknown. Further, not all screening 
methods are present at every airport, and TSA has modified the 
screening procedures and equipment used at airports over time. These 
modifications have included the discontinuance of screening equipment 
that was determined to be unneeded or ineffective. Therefore, we 
concluded that providing scientifically validated evidence that 
demonstrates that behavioral indicators can be used to identify 
passengers who may pose a threat to aviation security is critical to 
the implementation of TSA's behavior detection activities. 
Consequently, we added a matter for Congressional consideration to the 
November 2013 report. Specifically, we suggested that Congress consider 
the findings in the report regarding the absence of scientifically 
validated evidence for using behavioral indicators to identify aviation 
security threats when assessing the potential benefits of behavior 
detection activities relative to their cost when making future funding 
decisions related to aviation security. Such action should help ensure 
that security-related funding is directed to programs that have 
demonstrated their effectiveness.
    Chairman Hudson, Ranking Member Richmond, and Members of the 
subcommittee, this concludes my prepared testimony. I look forward to 
answering any questions that you may have.

    Mr. Hudson. Thank you, Mr. Lord.
    Finally, Mr. Charles Edwards is the deputy inspector 
general of the Department of Homeland Security. Mr. Edwards has 
over 20 years of experience in the Federal Government and has 
held leadership positions at several Federal agencies.
    The Chairman recognizes Mr. Edwards now to testify.

  STATEMENT OF CHARLES K. EDWARDS, DEPUTY INSPECTOR GENERAL, 
   OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Edwards. Good morning, Chairman Hudson, Ranking Member 
Richmond, Ranking Member Thompson, and distinguished Members of 
the subcommittee. Thank you for inviting me to testify today.
    I would like to take a moment to express my condolences on 
the tragic shooting incident at Los Angeles International 
Airport, that TSA Officer Gerardo Ismael Hernandez was killed 
and other TSA officials were wounded, one of whom is a behavior 
detection officer.
    Since 2007, TSA has spent an estimated $878 million on its 
Screening of Passengers by Observation Techniques program, 
commonly called SPOT. As of fiscal year 2012, the program was 
operating in 176 airports and employed more than 2,800 behavior 
detection officers.
    However, TSA has not implemented a strategic plan to assess 
or ensure the program's success. My testimony today will 
address the need for improvement in two areas: First, 
measurement of the effectiveness of the SPOT program; and, 
second, the training program for BDOs.
    We reported in May of this year that TSA is unable to 
accurately assess or evaluate the progress of the SPOT program 
because it does not have a finalized strategic plan that 
identifies mission goals and objectives needed to develop a 
system of performance measures.
    The program's standard operating procedures indicate that 
its purpose is to identify high-risk individuals who may pose a 
threat to transportation security, but TSA has not developed 
performance measures for the program. Instead, program staff 
collects activity output data, such as the number of passengers 
referred, but the data do not provide a measure of program 
effectiveness.
    For example, TSA documents the identification of prohibited 
items, undeclared currency, and illegal aliens, but the SPOT 
program has not defined how these outputs support achieving the 
SPOT program goal to identify high-risk individuals who are 
engaged in some form of deception and fear of discovery.
    Additionally, our testing showed that data collected was 
not always complete or accurate. TSA has not developed a 
training strategy that addresses the goals and objectives of 
the SPOT program. Formal BDO training and refresher training is 
not consistently provided, and there is no formalized process 
to evaluate BDO instructors.
    Although acknowledging that observation skills are 
perishable, TSA did not start providing refresher training for 
currently certified BDOs until May 2011, 5 years after the 
start of the program. Of the 88 eligible BDOs we contacted 
during our audit, 65, or about 74 percent, had not yet received 
the refresher training. BDOs who have not received recent 
refresher training may be operating at varying levels of 
proficiency.
    Furthermore, TSA does not have a program to provide 
recurrent training to BDO instructors to ensure these 
instructors continue to have the knowledge, skills, and 
abilities to instruct BDO classes.
    In response to our report and recommendations, TSA 
officials have taken numerous steps toward addressing these 
issues. For example, TSA officials have provided verification 
that comprehensive measures have been implemented to ensure 
completeness, accuracy, authorization, and validity of referral 
data collected. They have also developed and implemented a plan 
to provide recurrent training for BDO instructors and refresher 
training for the BDO workforce. Lastly, TSA officials have 
completed the BDO communications plan, which contains a number 
of workforce engagement tools designed to help the program 
office gauge selection, allocation, and performance of BDOs.
    In closing, without the implementation of the SPOT 
strategic plan that contains appropriate performance measures, 
TSA cannot evaluate the performance of the program to ensure 
that passengers at U.S. airports are screened in an objective 
manner or show that the program is cost-effective or reasonably 
justify the program's expansion.
    Mr. Chairman, this concludes my prepared statements, and I 
welcome any questions that you or the Members may have. Thank 
you.
    [The prepared statement of Mr. Edwards follows:]
                Prepared Statement of Charles K. Edwards
                           November 14, 2013
    Good morning Chairman Hudson, Ranking Member Richmond, and Members 
of the subcommittee: I am Charles Edwards, Deputy Inspector General for 
the Department of Homeland Security (DHS). Thank you for inviting me to 
testify today about the Transportation Security Administration's 
Screening of Passengers by Observation Techniques program, commonly 
called SPOT. Our audit report, ``Transportation Security 
Administration's Screening of Passengers by Observations Techniques'' 
(OIG-13-91, May 2013) concluded that, under the SPOT program TSA cannot 
ensure that passengers at U.S. airports are screened objectively, show 
that the program is cost-effective, or reasonably justify the program's 
expansion.
    My testimony today will discuss 4 issues in regard to the SPOT 
program, TSA's: (1) Performance management, (2) training strategy, (3) 
outreach efforts, and (4) financial plan.
    In 2003, TSA developed the Screening of Passengers by Observation 
Techniques (SPOT) program with assistance from the Massachusetts State 
Police. TSA began operational testing at Logan Airport in Boston, MA, 
and later expanded its testing at two other New England airports. 
According to the U.S. Government Accountability Office (GAO), in fiscal 
year 2007, TSA implemented SPOT, and was authorized 644 Behavior 
Detection Officers (BDO) for deployment to 42 airports. According to 
TSA, as of fiscal year 2012, more than 3,000 BDOs were authorized for 
deployment to 176 U.S. airports. TSA's Behavior Detection and Analysis 
Division was responsible for developing strategic plans and program 
guidance for the SPOT program. The program emphasizes objective 
behavior observation and analysis techniques to identify potentially 
high-risk individuals who are engaged in some form of deception and 
fear discovery.
    BDOs, working in pairs, primarily conduct SPOT at airport screening 
checkpoints by having brief verbal exchanges with passengers waiting in 
line, while observing passengers' behaviors. A BDO identifies 
passengers for additional screening based on an evaluation system of 
identified behaviors, which may require a referral to law enforcement. 
A law enforcement officer (LEO) may assess the situation by interacting 
or engaging the passenger to determine if law enforcement intervention 
is necessary. Passengers whose observed behaviors are not resolved 
during the referral process may not be permitted to board an aircraft.
    TSA BDOs were required to document all relevant information 
regarding each passenger referral in a referral report and the 
Performance Management Information System (PMIS). However, the SPOT 
Standard Operating Procedure prohibited the collection of personally 
identifiable information in the referral report or PMIS. Reports on the 
results of SPOT operations, such as the SPOT Situation Report 
Dashboard--All Airports, were generated from the data entered into 
PMIS. According to TSA, SPOT referrals made from October 2011 through 
September 2012 resulted in 199 arrests, which included outstanding 
warrants, suspected drugs, and illegal aliens.
                             audit results
    Since the Screening of Passengers by Observation Techniques program 
began in fiscal year 2007, TSA data indicate that the program has 
expanded from $20 million to $205 million in expended costs and the 
number of airports with the program has grown from 42 to 176. However, 
TSA has not implemented a strategic plan to ensure the program's 
success. TSA did not: (1) Assess the effectiveness of the program, (2) 
have a comprehensive training program, (3) ensure outreach to its 
partners, or (4) have a financial plan. As a result, TSA could not 
ensure that passengers at United States airports were screened 
objectively, show that the program was cost-effective, or reasonably 
justify the program's expansion. In fiscal year 2012, TSA's Behavior 
Detection and Analysis Division developed a draft strategic plan that 
included a statement of mission, goals, and objectives. However, the 
plan had not been approved and implemented at the time of our audit.
                        performance measurement
    TSA could not accurately assess or evaluate the progress of the 
SPOT program because it did not have a finalized strategic plan that 
identified the mission, goals, and objectives needed to develop a 
system of performance measures. Furthermore, TSA did not collect 
accurate or complete information about the program's operations.
    The SPOT program's Standard Operating Procedure indicates that its 
purpose was to identify high-risk individuals who may pose a threat to 
transportation security, but TSA has not developed performance measures 
for the program. As a result, the program collected data from referral 
reports that provided measurable outputs of specific activities; 
however, these outputs did not provide a measure of program 
effectiveness, because TSA has not established why these outputs 
support desired outcomes.
    For instance, TSA documented the identification of prohibited 
items, undeclared currency, and illegal aliens, but the SPOT program 
has not defined how these outputs support achieving the SPOT program 
goals. As a result, TSA cannot assess the SPOT program's success 
without relative outcome-oriented performance measures. In August 2012, 
TSA provided its draft Behavior Detection and Analysis Division 
Performance Metrics Plan. This plan was intended to identify current 
gaps in performance metrics collection, proposed metrics solutions, and 
resource requirements for the next 3 years, but it had not been 
approved and implemented at the time of our audit.
    Although program operations and outputs from referrals were 
recorded in the PMIS, the referral data captured was not always 
complete or accurate. BDO managers were required to review and approve 
all SPOT referral reports entered into PMIS, but the internal controls 
over data entry were ineffective. For example, PMIS was set up to 
automatically bypass manager review of a referral report after 72 
hours, and the data entry quality assurance measures beyond a BDO 
manager review are insufficient. Of the 15 airports tested, 1,420 of 
the 18,152 (8 percent) referral reports recorded in fiscal year 2012 
bypassed management review. Five of the airports had more than 15 
percent of the referral reports bypass management review. Only 1 of the 
15 airports tested had 100 percent management review of referral 
reports recorded in PMIS.
    BDOs were required to document information regarding each referral, 
including the reason(s) for a referral, the BDOs involved, and the 
resolution. However, passenger-specific data were prohibited from being 
recorded.
    We assessed more than 110,000 referral records in PMIS from April 
1, 2009, through September 30, 2012. Of those records----
  <bullet> 7,019 did not identify the primary or secondary BDO;
  <bullet> 1,194 did not meet the criteria for a referral;
  <bullet> 442 were referral records that were deleted; and
  <bullet> 143 did not contain a code for the airport where the 
        referral was made.
    Additionally, we identified duplicate records and one record that 
contained personally identifiable information.
    Incomplete and inaccurate PMIS SPOT referral data may have been 
used to present program results to TSA senior leadership and oversight 
officials to illustrate the results of the SPOT program. In fact, 4 
months after providing our audit team with PMIS data, the SPOT program 
office identified and corrected errors in the database before providing 
similar data to our investigators, who were conducting a separate 
investigation. We were not informed that the original data we received 
had been changed. SPOT program officials said they corrected errors in 
the level of LEO involvement and deleted duplicate records.
                                training
    TSA had not developed a training strategy that addresses the goals 
and objectives of the SPOT program. A well-designed training program 
should be linked to the agency's goals and to the organizational, 
occupational, and individual skills and competencies needed for the 
agency to effectively perform.\1\ As a result, TSA cannot ensure that 
training contributes to the uniform screening of passengers.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, GAO-04-546G, Human Capital: A 
Guide for Assessing Strategic Training and Development Efforts in the 
Federal Government, March 2004.
---------------------------------------------------------------------------
                            formal training
    TSA did not consistently offer formal refresher training to BDOs. 
Beginning in May 2006, all BDOs were required to attend the SPOT Basic 
Training course for BDO certification. TSA's training task analysis 
emphasized the importance of recurring training when it reported:

`` . . . observation skills are among the perishable variety. They need 
to be constantly honed and refocused on some regular basis. Observation 
is the single most important task in the entire SPOT Program . . . but 
little training is provided to address its importance, and there is 
virtually no measurement of the skill in the current testing 
program.''\2\
---------------------------------------------------------------------------
    \2\ Transportation Security Administration, Training Task Analysis 
for the Screening of Passengers by Observation Techniques Program, 
December 16, 2011.

    TSA did not start providing refresher training for currently 
certified BDOs until May 2011. The 3-day refresher training consisted 
of a review of SPOT Standard Operating Procedure requirements and 
addressed deficiencies in prior basic training courses. TSA determined 
that BDOs were not receiving training on 37 of the 63 (approximately 59 
percent) required job tasks in the original versions of the basic 
training course.
    BDOs with a year or more of experience were eligible to complete 
TSA's refresher training. According to TSA, 713 of the approximately 
2,200 eligible BDOs (approximately 32 percent) received refresher 
training in the past 2 years. Of the 101 BDOs we interviewed, 88 were 
eligible to receive the refresher training. Of the 88 eligible BDOs, 65 
(approximately 74 percent) did not receive the training. The SPOT 
program office reported that because of training staffing constraints, 
they needed to prioritize the training of new BDOs before conducting 
refresher training. As a result, BDOs who have not received the 
refresher training may be operating at varying levels of proficiency.
Instructors
    BDO instructors provided the only formal classroom training to 
BDOs. During July 2012, TSA provided training to BDO instructors and 
tested them on their teaching abilities. TSA identified six BDO 
instructors who did not have the instructor knowledge, skills, or 
abilities to instruct BDO classes. TSA provided remedial instruction to 
those instructors in order for them to become qualified to teach. 
However, TSA did not evaluate BDO instructors on their instructional 
abilities in their Performance Accountability and Standards System. 
Additionally, TSA did not have a program to provide recurrent training 
to BDO instructors. Therefore, the program office could not ensure that 
BDOs were effectively and consistently trained.
                                outreach
    The relationship between BDOs and local LEOs is critical to the 
program and needed to be improved. TSA incorporated law enforcement 
response as an integral part of the SPOT program. However, the SPOT 
program office has not ensured that airports effectively engage local 
law enforcement. BDOs and local LEOs at the airports contacted said 
there was insufficient understanding of the roles and responsibilities 
that each had relative to the SPOT program. For example, LEOs at 7 
airports contacted said they had not received clear information about 
BDO duties and why referrals from BDOs warranted law enforcement 
response. Conversely, BDOs expressed concerns about the consistency of 
LEOs' responses to referrals. BDOs said that local LEOs did not 
consistently respond to referrals or engage referred passengers. TSA 
data show that LEOs did not respond to 2 percent of the referrals 
between October 2011 and September 2012.\3\ Additionally, TSA data 
indicate that LEOs did not question 13 percent of referred passengers 
during that same period.
---------------------------------------------------------------------------
    \3\ This information is based on PMIS data, which may be incomplete 
and inaccurate due to errors identified.
---------------------------------------------------------------------------
    Of the 15 airports we contacted, 3 had locally-developed LEO 
outreach activities. At the airports using outreach activities, BDOs 
and LEOs reported more consistent and effective working relationships. 
The success of the program may be affected if BDOs and LEOs do not 
collaborate effectively.
                             financial plan
    The SPOT program's financial plan did not include priorities, 
goals, objectives, or financial performance measures. According to the 
SPOT program office, the program was allocated more than $1 billion 
between fiscal years 2007 and 2012. TSA data indicated that the program 
expended an estimated $878 million for the program office and SPOT 
personnel. OMB Circular A-11 describes budget formulation, development, 
and execution requirements that include needs analysis and budget 
development, budget execution, and expenditures tracking. Budget 
control is an integral part of an entity's planning, implementing, 
reviewing, and accountability for stewardship of Government resources 
and achieving effective results.\4\ Because the SPOT program did not 
have a financial plan that included priorities, goals, objectives, or 
measures, TSA could not: (1) Show that SPOT was cost-effective, (2) 
identify opportunities for improvement, or (3) justify the program's 
expansion.
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office, GAO/AIMD-00-21.3.1, Standards 
for Internal Control in the Federal Government, November 1999.
---------------------------------------------------------------------------
    Prior to fiscal year 2012, the SPOT program office did not fully 
determine priorities for future spending or develop an itemized 
forecast of future funding and expenditures. Performance information 
was not used to assess the effectiveness of program activities to 
develop budget priorities. According to program officials, the 
program's historical funding was the basis for spending estimates. 
Beginning in fiscal year 2012, the Behavior Detection and Analysis 
Division developed spend plans that identified project funding 
requirements. According to the fiscal year 2013 draft spend plan, the 
objective of the spend process was to collect, identify, and document 
funding requirements for the budget year with a 5-year forecast. 
However, the spend plans did not include a comprehensive accounting of 
SPOT funding requirements, such as BDO costs and training.
    Although TSA had several areas that required improvement, SPOT 
officials have taken several steps toward meeting those objectives 
since our audit was issued.
    For instance, TSA officials have provided verification that 
comprehensive measures have been implemented to ensure completeness, 
accuracy, authorization, and validity of referral data entered into 
PMIS. They have also developed and implemented a plan to provide 
recurrent training for Behavior Detection Officer instructors and 
refresher training for the BDO workforce. Lastly, TSA officials have 
completed the BDO Communications Plan, which contains a number of 
workforce engagement tools designed to help the program office gauge 
selection, allocation, and performance of BDOs.
    In closing, strategic planning is the keystone to a successful 
program. Because OMB Circular A-11 guidance identifies requirements for 
agency strategic planning, it would be prudent for agency programs to 
follow these same principles to help ensure program success and 
contribute to the agency's mission. Without the implementation of a 
SPOT strategic plan that contains key elements, TSA cannot ensure that 
passengers at U.S. airports are screened in an objective manner, show 
that the program is cost-effective, or reasonably justify the program's 
expansion to ensure that threats to aviation security are effectively 
prevented.
    I would also like to take this moment to express my condolences on 
the tragic shooting incident at Los Angeles International Airport where 
TSA Officer Gerardo Hernandez was killed and other TSA officials were 
wounded.
    Mr. Chairman, this concludes my prepared remarks. I welcome any 
questions that you or the Members of the subcommittee may have.

    Mr. Hudson. Thank you, Mr. Edwards.
    We appreciate you all being here.
    I now recognize myself for 5 minutes to ask questions.
    Administrator Pistole, when we spoke after the shooting, I 
was extremely pleased to learn that TSA personnel at LAX had 
recently trained for an active-shooter situation. I think we 
agree that that training certainly helped that response to the 
actual shooting situation. That probably led to saving lives. 
They knew exactly what to do and, certainly, as I say, saved 
lives as a result.
    However, as Chairman McCaul indicated, we have also heard 
that the communication between police and TSA when shots were 
fired may have broken down, could have been conducted better. 
Would you agree that the communication issue is one of the 
areas you need to review?
    Mr. Pistole. Yes.
    Mr. Hudson. Thank you.
    During the time of the shooting at LAX, were there any BDOs 
deployed in Terminal 3 when the shooting took place? If so, do 
you know if they witnessed behavior of the shooter before the 
incident took place?
    Mr. Pistole. There were BDOs deployed in Terminal 3. The 
area that the shooting took place was on a lower level before 
the actual checkpoint. So the initial officer, Officer 
Hernandez, that the shooter encountered, that was just seconds 
after the shooter entered the terminal after being dropped off 
at curbside there.
    So there were no BDOs down at that level, but the BDOs were 
stationed--and, in fact, Tony Grigsby, who was injured, was one 
of those up there helping passengers after the shooting took 
place.
    Mr. Hudson. Could you explain for us the protocols that 
BDOs follow when they refer a person to local law enforcement, 
how that takes place?
    Mr. Pistole. Sure. So, obviously, BDOs will compare, so it 
is not an isolated incident, and if one BDO makes an 
observation, they confer with their partner to see if that is 
accurate, if that is what they observed. Then, if they concur 
on that, then, dependent on what the suspicious behavior is, 
they may engage the passenger themselves, most likely would be 
the first response, and to get a sense of that person's--just 
who they are and everything.
    If it warrants a law enforcement response because of 
something that goes beyond the norm, and particularly if they 
have referred that person for secondary screening and there is 
an issue there, which is sometimes the case, then that is when 
law enforcement officers are called in to help resolve that 
situation.
    Mr. Hudson. Are they able to contact the local law 
enforcement through radio communications? Or how does that 
communication take place?
    Mr. Pistole. So it all depends--you know, from 450 
airports, it depends on which airport and what the 
communication apparatus is there. They have radios. The people 
at--TSA employees at the checkpoints have radios that they can 
call in to a command post, which is staffed both--or 
coordination center, depending on where you are, that is 
staffed either by TSA employees in that coordination center 
and/or the airport police if they are on-site. So it depends on 
which airport.
    So they can make that request. Now, a number of the 
airports do have airport police on-site at a podium at the 
checkpoint. So, again, it depends on which airport, what would 
be the normal response protocol.
    Mr. Hudson. Is the local law enforcement required to 
respond? If so, how quickly is local law enforcement required 
to be present to respond to that referral?
    Mr. Pistole. Generally, law enforcement--there are about 
330 of the airports that there is a law enforcement 
reimbursement agreement that TSA has, where we help pay for the 
cost of those police officers to be present. In those airports, 
under the aviation security program that TSA has with the 
airports, there is an agreed-upon response time, which is 
typically 5 minutes.
    But now, for example, in some of the smaller airports in 
rural areas where there is no dedicated presence, it may be 15 
or even 20 minutes because it is a sheriff's deputy, who is not 
actually stationed there. So, again, it varies by airport, but 
typically it is 5 minutes. That is done by agreement between 
the airport police or those first responders and TSA.
    Mr. Hudson. Well, in general, do you think this response 
time is sufficient?
    Mr. Pistole. So, again, that was designed with the idea 
that you may find somebody not causing intent to do harm in the 
sense of somebody has a gun or something else, prohibited item. 
So, obviously, given the shooting, we are evaluating that.
    Clearly, even though the Los Angeles Airport Police 
responded and neutralized the target within 4 minutes from the 
first call, obviously, if the shooter had the intent to cause 
much greater harm, there are dozens of passengers that he could 
have shot but he just walked right past. You watch the 
videotape of all this taking place, and, literally, there are 
people right at his feet. When he goes back to shoot Officer 
Hernandez the second time, there are literally passengers laid 
on the floor right by him he just avoids.
    So, clearly, 5 minutes was too long in this case, so that 
is something we are looking at as part of our review.
    Mr. Hudson. Well, I appreciate that.
    My time has expired. The Chairman now recognizes the 
Ranking Minority Member of the subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for any questions he may have.
    Mr. Richmond. Thank you, Mr. Chairman.
    Let me just start with Mr. Lord and Mr. Edwards. In your 
report--and I don't remember the number so I hope can you give 
it to me--how many BDOs did you find had never made a referral 
to police?
    Mr. Lord. I don't have the specific number at the tip of my 
fingers, but it was more than 20, as I recall. Perhaps 25.
    Mr. Richmond. I think I am being told somewhere around the 
number of 70 to 76, somewhere around there. But how do you 
critique or judge someone objectively when all of the things 
you would judge them by are in their own head? I don't 
understand how we even monitor the program to judge its 
effectiveness.
    Mr. Lord. Well, it is a difficult proposition, obviously. 
That is one of the reason they work in pairs. They like to 
confer and make sure they are both seeing the same thing. But 
some of the indicators they are honing in on are, quite 
frankly, subjective, so it is difficult to measure whether they 
are consistently honing in on the same behavioral indicators. 
In fact, that is why you see the great variation across BDOs. 
We saw an average of zero to 26 referrals per month on average 
across different screeners.
    Mr. Richmond. Mr. Pistole, first of all, thank you for your 
service. Let me ask you, did any of the referrals by our 
officers result in an arrest that indicated a terrorist plot or 
something of that nature?
    Mr. Pistole. Not to my knowledge. They were for other 
criminal offenses, whether it is an outstanding warrant, drug 
trafficking, money trafficking, being in the country illegally, 
things like that. But to my knowledge, just for context, there 
has not been a single attempted terrorist to enter a U.S. 
airport, aircraft since 9/11.
    Mr. Richmond. Any human trafficking?
    Mr. Pistole. Yes. There was an instance, for example, last 
year in Miami where there were two men with a young woman, and 
a BDO observed this situation and interceded, which did result 
in the arrest of those two individuals and would have rescued 
that woman from human trafficking or at least for that 
immediate time.
    Mr. Richmond. Let me ask you another question, but before I 
ask the question I want to say that--and thank you for your 
leadership. When I talk about leadership, it is sometimes the 
hard part of leadership when you go down a path and you realize 
it is not working, that it may not have been the best decision 
to reverse it. That is the hard part of leadership. So thank 
you for your decision with the knives and all of those things.
    My question would be, can you find a place within your 
agency to better spend $200-plus million a year than on this 
SPOT program?
    Mr. Pistole. Thank you for that question. I have given that 
a lot of thought, given the concerns that have been raised, 
both by GAO and the IG. Look, under RBS we are achieving 
efficiency. So we are a smaller agency today than we were a 
year ago, and I believe that trend will continue, primarily 
through attrition. So it is not that we are laying people off.
    But my concern with those efficiencies is that if we remove 
one whole layer of security, that being the BDOs, who, again, 
are the least invasive and looking for intent rather than 
items, then that gives us an exposure to potential terrorists 
that we don't currently have.
    The risk-reward equation is difficult, as GAO and IG have 
pointed out. Given my experience in law enforcement and 
National security, I know behavioral protection works, and so I 
am a strong advocate, because I don't want to take away a layer 
of security that may identify the next putative terrorist who 
may decide they want to try to get into an airport here in the 
United States to do something bad.
    Mr. Richmond. Well, I would love to have at least a 
statement or analysis on our return on investment on that $200-
plus million.
    Let me just say this in my final few seconds, because I 
know that we have made a lot of statements about the incident 
at LAX, and you and I talked on the phone. When we talk about 
response time, and when we talk about what could have been done 
to do things differently and prevent loss of life, I think the 
other side, my colleagues on the other side all the time remind 
us that we can't be everything to everybody because we don't 
have the money to pay for it.
    It is unfortunate that this happened at a checkpoint, it 
happened within the airport, but if we just take a moment to 
think, if it happened in a parking garage we wouldn't be there. 
If it happened curbside we may be there. So at some point we 
have to thank the people that put their lives on the line and 
do it knowing that they are putting their lives on the line, 
but also that we just don't have the capability and we don't 
have the resources to make sure that we are on every street 
corner, every parking garage, and everyplace else.
    So with that in mind, thank you for being very thoughtful 
and methodical in where we place people. There are going to be 
lessons to be learned from this incident in communications and 
all of those things that we need to do better. But we have to 
look at other things besides what happens when somebody is 
holding a gun to prevent them from having it in the first 
place, or that rage to do things.
    So thank you for what you do. That is not a shot for my 
colleagues on the other side, but we as a society have to work 
more on the underlying factors because we just can't be 
everywhere. Thank you.
    Mr. Hudson. Thank the gentleman.
    The Chairman now recognizes the Ranking Minority Member of 
the full committee, the gentleman from Mississippi, Mr. 
Thompson, for any questions he may have.
    Mr. Thompson. Thank you very much, Mr. Hudson.
    Administrator Pistole, can TSOs at LAX communicate with the 
Los Angeles Police Department at the airport by radio?
    Mr. Pistole. Yes.
    Mr. Thompson. So there is communication?
    Mr. Pistole. Yes.
    Mr. Thompson. I want to at some point provide you 
information that says that that is not the case. I want to make 
sure that we are on the same wavelength with that. By 
communicate, I am talking about radio, not telephone, not panic 
button.
    Mr. Pistole. Yes.
    Mr. Thompson. But radio.
    Mr. Pistole. Yes, and that may go through the coordination 
center for TSA with the LAWA Police, as opposed to if you are 
talking about is there an officer around the corner that they 
would have direct contact to. So maybe we can clarify that.
    Mr. Thompson. Well, I think the question is, if an incident 
occurs, do our TSOs have radios at checkpoints?
    Mr. Pistole. The supervisors, yes, or the manager there, 
yes.
    Mr. Thompson. Was there a supervisor or manager on duty?
    Mr. Pistole. Yes.
    Mr. Thompson. Did that supervisor or manager call on the 
radio?
    Mr. Pistole. No. The supervisor picked up a dedicated line, 
literally a red phone to call in, and as they were getting 
ready to speak, you can watch in the video, she drops the phone 
and runs because the shooter is coming up the escalator, having 
just fired additional rounds, and so she did not stay to finish 
that call.
    Mr. Thompson. So the radio was not communicating.
    Dr. Gerstein, this validation report you reference, are you 
comfortable with the results of that contract for validation?
    Mr. Gerstein. Yes, sir. We have looked at the validation 
study. We believe that the findings, the 9 times greater the 
detection over random is important. When I say 9 times, people 
forget, that means 900 percent better, and that is an important 
statistic.
    Mr. Thompson. So you stand by the validation report?
    Mr. Gerstein. The SPOT validation, indeed.
    Mr. Thompson. Mr. Lord, what is your analysis?
    Mr. Lord. Unfortunately, I will have to respectfully 
disagree with Mr. Gerstein, in fact. I think it is important to 
look at the report itself. It was couched as an initial first 
step and made several recommendations going forward to improve 
validity, reliability. The technical advisory committee report 
that was associated with it raised some similar concerns.
    So again, it was useful, you know, it provided some 
insights on the program, but we don't think it should be used 
to establish the effectiveness of the program. If I could give 
you one little example. The indicators, even though we had 
concerns about the reliability of the data, we replicated the 
results and we did find some positive associations between 
behaviors and high-risk individuals, as DHS did. But we also 
found some negative associations. That means the BDOs are 
potentially honing in on some behaviors more commonly 
associated with low-risk passengers, in fact with 20 of the 
indicators. So we were concerned that that wasn't included in 
the report. So it appeared they perhaps were highlighting the 
positive and not accentuating the negative.
    Mr. Thompson. So in essence, as you said, you disagree with 
this report?
    Mr. Lord. Yeah, I don't think it can be used to conclude it 
is 9 times more effective than random.
    Mr. Thompson. Mr. Edwards, can you speak about how training 
and evaluation of BDOs is important? I have a concern that we 
have a number of people who are BDOs who have never made a 
single referral. I would assume they are considered successful 
employees. Can you explain people who don't do referrals or 
anything for the committee?
    Mr. Edwards. Well, thank you, sir. TSA has to take a number 
of steps, including collecting reliable data, but regarding 
training and refresher training, you know, 5 years after the 
program came into existence, you know, they started the 
refresher training. Out of the folks that we had interviewed, 
you know, out of the 88 people that we interviewed, a number of 
them, 713 out of the 2,800 BDOs were ready for the refresher 
training in 2 years.
    The other problem is this refresher training was held in a 
classroom and the BDOs are not able to practice that, what they 
learn in class, until they come back to their home airport. Not 
having this consistent refresher training across the board, not 
everybody is referring what they need to refer because the 
varying levels of training that one has gotten and not gotten.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. Hudson. Thank you, Mr. Thompson.
    The Chairman will now recognize other Members of the 
committee for questions they may wish to ask the witnesses. In 
accordance with our committee rules and practices, I plan to 
recognize Members who were present at the start of the hearing 
by seniority on the subcommittee. Those coming in later will be 
recognized in the order of arrival.
    At this time, the Chairman will recognize the gentlelady 
from Indiana, Ms. Brooks, for any questions she might have.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you for 
holding this hearing in such a timely way.
    I want to just speak to Administrator Pistole and offer my 
condolences to your officer and to those who were injured and 
to the entire workforce. I applaud the fact that you reminded 
us that since 9/11 we have not had an incident, a terrorist 
incident at an airport or on any of our aircraft, in large 
part, not that there haven't been attempts occasionally on 
aircraft, but that TSA has been doing what it was founded to 
do.
    I was U.S. attorney at the time TSA was started, and I want 
to talk with you and a couple of other panelists about, you 
know, behavior detection, which is the heart of law 
enforcement. Whether you are a local law enforcement officer or 
whether you are--which is what TSA is really all about, is it 
not, about behavior detection, whether they are coming through 
checkpoints, whether they are, you know, informing airport 
police officers.
    With your FBI background prior to TSA, can you talk a bit 
more about behavior detection and its importance, not only for 
BDOs, but also what are the TSA officers and the supervisors, 
you know, if we were to--I believe it is hard to study, because 
I believe that it is something that--but it is the heart of 
what these officers are trained to do.
    You know, I am interested in hearing more about the 
importance of behavior detection, how you were training on it, 
as has been discussed, but yet how officers learn over time, 
and based on the time that they are there. Can you just talk 
about behavior detection, specifically in law enforcement, but 
in the role of TSA, which are not, you know, specifically law 
enforcement?
    Mr. Pistole. Thank you, Congresswoman Brooks, and thank you 
for your kind words.
    Sure, some of this is, frankly, common sense that is just 
human nature, what people do every day in assessing others that 
they come in contact with. Is that other person demonstrating 
stress, fear, or deception in some way? So it is just human 
nature. Of course, with a law enforcement background, a lot of 
this discussion is difficult to quantify, to say, well, what 
does your gut tell you about that person you are talking to or 
that you are observing? I could give a number of anecdotes from 
my FBI days. I won't do that. But just that notion that it 
really becomes a survival skill, particularly for front-line 
police officers who are out on the street every day engaging 
people.
    So what we in TSA have done is taken that basic training, 
looked at what the Israelis did, continue to do in terms of 
their assessment of people through behavior detection officers, 
and to say: How can we apply that in the airport environment? 
Then trained, again within our budgets and everything, to say, 
here is what we will do to equip our officers on those front 
lines from making that non-invasive, non-intrusive assessment 
that can either help identify somebody who may be high-risk, 
such as these human traffickers, not that they are terrorists. 
But what we are doing now under risk-based security is also 
making the other side of the equation identifying low-risk 
individuals. So we, where I mentioned earlier, that 80,000 
passengers on Monday alone went through expedited physical 
screening, that is because the behavior detection officers did 
not detect suspicious behavior.
    So how do you quantify that? What is the return on 
investment? Well, if you asked those 80,000 people, they would 
probably say, hey, I appreciate those BDOs making a judgment 
about me that I got through expedited physical screening, 
basically TSA PreCheck. So GAO didn't have a chance to address 
that, because that is an evolution of RBS, just one of the 
different manifestations.
    But it really is one of those key enablers for us as we 
transition from one-size-fits-all to risk-based, intelligence-
driven, and how can we employ all of the tools that are 
available? So the concern is, if you think of a mesh or a web 
or something, why would we take one of those layers of security 
off to allow possible terrorists to try to get through if they 
have either an underwear bomb or, you know, there has been 
intelligence in the past about surgically implanted devices 
that technology probably won't pick up. So we rely on our BDOs 
to make assessments about people who may manifest some 
suspicious behavior. So that is all part of the background.
    Mrs. Brooks. Thank you very much.
    Just very briefly, Dr. Gerstein, it is my understanding 
that Customs and Border and FLETC also utilize. Is S&T involved 
in assisting those agencies with developing their behavior 
detection tools and techniques?
    Mr. Gerstein. We have a number of on-going initiatives with 
both FLETC and primarily Customs and Border, but none of them 
to my knowledge are directly related to the behavioral 
detection analysis or operations. We go where we are asked by 
our partners, and so if that is an area that they want to get 
into we certainly would assist with that.
    Mrs. Brooks. Thank you.
    Mr. Hudson. The gentlelady's time has expired.
    At this time the Chairman will recognize the gentlelady 
from Texas, Ms. Jackson Lee, for any questions she may have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me thank the Chairman and the Ranking Member for 
holding this hearing. As I indicated previously, publicly, 
again, my deepest sympathy to Mr. Hernandez's family and the 
entire community, and to thank the law enforcement community of 
that area for the most passionate and dignified tribute to him. 
It was enormously heartwarming to see the law enforcement 
community both at the airport and the surrounding area come 
together and acknowledge the service of Mr. Hernandez as a law 
enforcement officer. Which again, I join with my Ranking 
Member, Mr. Thompson to acknowledge that I hope that concludes 
forever any comment that TSOs are not first responders or 
dealing with the security of this Nation, and put to rest any 
ideas of privatization as a substitute for a professional 
Federal workforce. So let me thank you again for that.
    Let me also, Mr. Pistole, thank you for meeting with the 
aviation stakeholders. As you well know, that was an important 
issue led by our Ranking Member of the full committee, and 
hopefully that was a productive meeting, and that you will 
continue to do so vigorously.
    I have toured the Bush Intercontinental Airport with the 
FSB and chief of police and other law enforcement walking 
through our airport after this tragic incident and looking at 
the TSA areas, the security areas in at least four of our 
terminals there, and will continue to dialogue with them.
    I raise this question about how we can be effective with 
respect to the perimeter security, which I think has been put 
off on airports. I think it is a question of no one knowing who 
is responsible for it.
    One of the issues I think is important to the Chairman is 
the idea or the concept of reimbursement for added security in 
the perimeter area. As a frequent traveller, I view the 
perimeter area, meaning the external and ticketing areas, as a 
concern leading up to the secured area, where our TSOs are.
    My question to you is: What proposition could you put 
before with respect to funding on reimbursement to local law 
enforcement for enhanced security that many of the TSOs--all of 
them, I move, that you have had a chance to speak to--have 
suggested should occur?
    Mr. Pistole. Well, thank you, first, Congresswoman, for 
your gestures of condolence and for your call, and appreciate 
that, and pass that on, obviously, to Officer Hernandez's wife.
    So what you address is one of the things that the working 
group that we established internally, and then in discussing 
with the ASAC, the Aviation Screening Advisory Council, and the 
broader community, what would those costs look like? So I don't 
have that for you right now, but that is something we are 
looking at.
    If we, for example, reduce the response time from 5 minutes 
to 3 minutes, how much additional would that cost, and how much 
of that should be borne by the Federal Government in terms of 
we call it the LEO reimbursement agreements, and then how much 
would be borne by the local airports? Of course, budgets are 
tight everywhere, so the question is: How do we best buy down 
risk? Part of that discussion that we had last week was how do 
we ramp up the unpredictable random patrols by armed officers 
at and through checkpoints that may now be doing other things? 
So there is a number of things that I have to get back with you 
on that.
    Ms. Jackson Lee. Let me make a formal request that that 
inquiry be made, but more importantly, that that reimbursement 
structure be put in place. It is no doubt that the presence and 
the quicker response of armed law enforcement is part of the 
solution. Certainly, the solution is not armed TSO officers in 
the very small areas that they have to deal with innocent 
traveling passengers.
    Let me quickly ask GAO, did you detect any racial profiling 
in the work of the BDO, and are you not suggesting that the 12 
points that they are finishing would improve it? Are you 
suggesting that there should be other improvements? Are you 
also suggesting that the program should be slimmed down?
    I think Mr. Pistole makes a point on layering, but I would 
be appalled and in great opposition if there was racial 
profiling. I think one of the issues of the BDO is that the 
overall impact is not immediately detectable because it is sort 
of a floating issue, if you will, of whether or not there is 
safety. So could you answer that? Then the enhanced training, 
would that have an improvement? I would be willing to look at 
enhanced training, slimming down the program to get where GAO 
thinks it needs to be, to be able to have it as a complementary 
layering of security at airports. Mr. Lord.
    Mr. Hudson. The Chairman is happy to let Mr. Lord answer 
that even though the gentlelady's time has expired. Please go 
ahead.
    Ms. Jackson Lee. I thank the Chairman for his generosity.
    Mr. Lord. Okay, thank you for the question.
    In terms of racial profiling, of course, you are aware that 
the IG did a separate study at the allegations involving Boston 
Logan, and found in their study there was no evidence of racial 
profiling. I believe they interviewed all of the behavior 
detection officers on site. Although they did note, which is 
one interesting thing, they did note in some cases there was 
what they termed appearance profiling. So I am not sure to what 
extent that overlaps with racial profiling, or how they define 
that, but that was one notable finding perhaps Mr. Edwards can 
respond to.
    In terms of limiting funding in our recommendation, 
obviously, as I said in my opening remarks, I believe there is 
value in focusing resources on screening for potential bad 
actors at the airport through behavioral detection techniques. 
The question is: How do you go about it? I think as part of our 
review of SPOT, we believe it is a very complicated scoring 
process. We believe it could be streamlined, simplified, 
perhaps focus more on passengers deemed high-risk. I mean, some 
passengers come to the airport, they are already preselected 
for secondary screening, and TSA is developing on this new risk 
methodology to supplement that.
    So perhaps that may be a way to do it rather than trying to 
do it on this mass stand-off surveillance basis, which is very 
difficult, because as the report notes, each passenger on 
average is screened for 30 seconds or less. So it is really 
difficult to do that to every single person coming in the 
airport without interacting with them. So we think there is a 
way to make them more interactive, more risk-based, more 
simplified, and that is essentially what we are referring to in 
our report. Thank you.
    Mr. Hudson. I thank the gentleman.
    Thank the gentlelady for her questions.
    Ms. Jackson Lee. Thank you.
    Mr. Hudson. The Chairman will now recognize the gentleman 
from South Carolina, Mr. Sanford, for any questions he may 
have.
    Mr. Sanford. Yes, sir. I appreciate the testimony of each 
of you.
    Gordon Sullivan, a retired general, wrote a book a long 
time ago entitled ``Hope is Not a Method.'' It just seems to me 
when I look at the fundamentals of the SPOT program it seems 
that it is built on that foundation. It seems to be a cart out 
before the horse because, indeed, you do have deployment before 
you have validation of effectiveness. So the whole idea of 
spending $1 billion and having 3,000 folks employed in this 
endeavor while, you know, from a statistical standpoint the 
results are about 50/50, seems to be not a good use of taxpayer 
money.
    But I want to zero in on what my associate Bennie Thompson 
was touching on just a moment ago. I think that there is a real 
civil liberty component to what is going on here that I think 
is a real challenge. I tell my boys all the time, guys, have 
the wisdom to know what you don't know. Mr. Richmond was 
touching on this notion of how do you get inside somebody's 
head just a moment ago. I think it is a very difficult place to 
be.
    So you have a system set up wherein, as I read here the 
notes, you are going to look for behaviors that indicate 
stress, fear, or deception. But I would ask you, Mr. Pistole, 
you know, if you were a young kid that maybe got the off the 
track at an earlier age, you served some time but you paid your 
price to society, but you do have a criminal record, if a law 
enforcement fellow was standing before you asking you 
questions, do you believe that you would exhibit stress or 
fear?
    Mr. Pistole. It all depends on the individual. Yeah, sure, 
potentially.
    Mr. Sanford. Okay. What if you were a staunch right-wing 
conspiracist with very strong anti-Government leanings, you had 
posted things that probably weren't the best to post on the 
internet, but you had the security of invisibility that goes 
with the internet, but now you have got law enforcement 
probing, asking you questions, would you exhibit stress or 
fear?
    Mr. Pistole. Again, it depends on the individual, but 
potentially, sure.
    Mr. Sanford. If you were an immigrant whose dad and mom 
perhaps had come here illegally, would you exhibit stress or 
fear if somebody was asking you questions?
    Mr. Pistole. All situational, again.
    Mr. Sanford. Let's say you were a, you know, a wife whose 
husband has been beating her and you are just trying to get on 
airplane to get the heck out of town, would you exhibit stress 
or fear if somebody was going into interrogation on some front?
    Mr. Pistole. Again, situational.
    Mr. Sanford. Which I think raises the question that the GAO 
report has brought, and what Mr. Lord testified, which is, 
again, entirely situational. But the question is in this 
instance, you know, the difference with a front-line officer 
who is there on the street, you pull up to a car, you don't 
know what they got in the car. You don't know who they are. You 
have nothing that insulates you as an officer, and you better 
be, you know, cueing in on nonverbal cues.
    But in this case you go through a screening system that 
essentially undresses somebody. You send their equipment, 
whatever they have, through radar detection and other device. 
It is a very different environment. The question is, I think, 
from a civil liberties standpoint, given those other tests that 
have been made with regard to, you know, who this person is, do 
you, in addition, have to go through a screening process based 
on somebody's interpretation of what they think might be inside 
your brain?
    Mr. Pistole. I mean you raise good points, Congressman. Let 
me address a couple of things. I would have loved to have 
behavioral detection officers in Schiphol Airport in Amsterdam 
on Christmas day 2009 to see how Abdulmutallab, the 24-year-old 
with the underwear bomb, would have appeared. We don't have 
that on CCTV. Most notably----
    Mr. Sanford. But what if he had been a cool customer and 
you wouldn't know?
    Mr. Pistole. But that gives us another opportunity. So 
there is no perfect science. There is no perfect art of this.
    Mr. Sanford. Well, to your point, how many underwear bombs 
have been detected with these 3,000 officers?
    Mr. Pistole. Zero, because I believe they have served--what 
we have done in TSA in the United States has served as a 
deterrent. I know we have a Classified briefing next week where 
we can talk in a little more detail, but what we do in the 
United States----
    Mr. Sanford. But we have got to look at cost-effectiveness 
in the program.
    Mr. Pistole. Okay.
    Mr. Sanford. I mean, how many surgically-implanted bombs 
have they found?
    Mr. Pistole. Fortunately, there haven't been any deployed 
that we are aware of.
    Mr. Sanford. Zero and zero in terms of result, but $1 
billion of cost.
    Mr. Pistole. So if we look at that in the context, this has 
been over 7 years, and we have screened by observation over 4 
billion passengers. It actually comes out to less than 50 cents 
in some instances; 25 per passenger is the cost for BDOs to 
observe. So you are right----
    Mr. Sanford. Or you could say it in reverse, you could say 
$1 billion with no results.
    Mr. Pistole. Well, I would say there is a result from the 
standpoint of deterrence.
    Mr. Sanford. I see my time is coming to an end, and I think 
we could argue that point, but I think that there is a bigger 
civil liberty point, which is whether there has or hasn't been 
deterrence GAO raises questions on. They say it is flip of a 
coin.
    But on the opposite side of the equation, in addition to 
possible redeployment of those 3,000 folks and the taxpayer 
cost associated with that, there is a big civil liberty 
question of, to get on an airplane, does it require more than 
in essence undressing and having all your equipment checked, 
but now a second level of screening based on somebody's 
interpretation of what they think is inside your head.
    Mr. Hudson. The gentleman's time has expired. If you want 
to briefly respond.
    Mr. Pistole. Yeah, I would. Thank you, Chairman.
    So there is only a very small percentage of people who are 
referred for additional screening by BDOs. That is one point. 
Another is that the whole impetus of the risk-based security 
initiative, RBS, with TSA PreCheck, DOD, 75 and over, 12 and 
under, all of those things are designed to address some of 
those concerns about the invasiveness and intrusiveness of the 
one-size-fits-all approach.
    So I get your point on that. The idea is how can we work 
collaboratively to have multiple layers of security, that we 
can expedite those that we have greater confidence in without 
ever profiling. So the notion about profiling, I agree strongly 
with the Ranking Member that we will not tolerate in TSA. If we 
find any person, any employee who is profiling based on race, 
ethnicity, national origin, any of those things we will take 
appropriate action.
    Mr. Sanford. I think--I mean, I have run out of time--but I 
think Mr. Lord raised the question of the type of profiling 
that in fact does occur. The guy in the business suit generally 
isn't going to be the most suspicious-looking guy.
    Mr. Hudson. Unfortunately, I will need to cut this off. We 
will do a second round of questions, but I would like to move 
on to other Members.
    At this point I will recognize the gentleman from Nevada, 
Mr. Horsford, for any questions he may have.
    Mr. Horsford. Thank you very much, Chairman Hudson, and to 
the Ranking Member, Mr. Richmond, to the Ranking Member of the 
full committee, Mr. Thompson, for allowing me to participate in 
this hearing today. Thank you to our panelists.
    I just want to associate myself with the comments of the 
Ranking Members and the other panelists who have talked about 
the need to both protect our National security while preserving 
Americans' right to privacy and our civil liberties, and to 
underscore the statements by the prior representative who 
asked, you know: What is the return on investment for $1 
billion? To somehow suggest from the GAO report that there is 
not profiling I think deserves some more analysis and review.
    Administrator Pistole, I also wanted to extend my personal 
condolences to the TSA officer, Mr. Hernandez, and to his 
family, for giving his life in the protection of the American 
public. The TSA forms the front line of our Nation's aviation 
security and their work is not only critical, but also 
appreciated. I think in light of the resent tragic events at 
the Los Angeles airport, airport security is once again in the 
fore.
    Based on the review that we have received that your agency 
conducted, it is my understanding that the shooter entered 
through the exit lane of that airport. So I am concerned that 
the actions and policies adopted by the TSA may have some 
unintended consequences, particularly because they are being 
made without the input of stakeholders who may have particular 
expertise on the topic.
    I recently offered an amendment to Ranking Member 
Thompson's bill, the Aviation Security Stakeholder 
Participation Act, which will form the Aviation Security 
Advisory Committee, and my amendment added the issue of exit 
lane security to the scope of the advisory committee's 
responsibilities. This was done prior to the tragic events at 
the Los Angeles airport.
    So, Administrator Pistole, isn't it true that your plan to 
transfer responsibility of exit lanes from the TSA to local 
airport authorities has been met with near universal resistance 
from local airports?
    Mr. Pistole. First, Congressman, thank you for your kind 
words earlier.
    So the context for the exit lanes are that airports 
currently in the United States provide exit lane staffing in 
two-thirds of all of the airports in the United States where 
TSA has a presence. So we are only talking about one-third of 
the airports. So there is 155, approximately, airports that TSA 
provides some type of staffing.
    Now, we will still do the staffing as it relates to 
screening of law enforcement officers, known crew members, 
pilots, flight attendants, and things like that. We will still 
do that screening function. The issue with the exit lanes is on 
access control.
    Mr. Horsford. Right.
    Mr. Pistole. The exit lane is one of dozens of access 
control points around the airport that TSA does not provide 
any, that is an airport function. So in shifting this 
responsibility, I understand the concerns that airports have 
expressed because of the costs associated with this. The bottom 
line for us in a time of reduced budgets for TSA, we have to 
find cost savings to focus under a risk-based security approach 
on the security screening functions as opposed to access 
control.
    Mr. Horsford. Yeah, and I respect that, however it can't be 
done in a vacuum.
    Mr. Pistole. I agree.
    Mr. Horsford. You have got to do it with the inputs of your 
stakeholders and with Congress, which signed legislation 
putting this responsibility under the TSA. We haven't changed 
that from a policy standpoint. So to have the TSA take this up 
without direction from Congress, I also think may be 
inappropriate from a regulatory standpoint.
    One of the other issues that I have is with the TSA 
procurement procedures for both vendors and airports, because 
they assume tremendous risk when they begin the process of 
adopting new technologies. The airport closest to my district, 
McCarran International Airport, recently won approval for TSA 
for a technology solution to the problem of exit lane 
monitoring, for which I am, you know, very excited. But my 
question is: How does TSA expect airports to take the risk of 
designing, purchasing, and installing these technologies within 
the time frames presented and without TSA preapproval of that 
technology?
    Mr. Hudson. The gentleman's time has expired, but I will 
allow the administrator to respond if you would like.
    Mr. Pistole. Yeah, thank you, Chairman. So we are not 
dictating to the airports how they do the exit lane security. 
If they want to staff somebody, put a person there as TSA has, 
that is fine. We just ask the airport authorities to work with 
the local Federal security director to have some acceptable 
solutions. So for the technology solution, that is great, we 
just ask that we be given insight into what that is, and then 
we will review and presumably approve if it meets standards, 
but we are not in the business of dictating, saying this is 
what you will do. We are just saying we are out of that 
business----
    Mr. Horsford. Can I just clarify? Can you approve in a pre-
approved qualified vendor list so that once they are selected, 
they know that the project can come to fruition?
    Mr. Pistole. We have not taken that approach for various 
reasons which I can get into more detail later, but, no, we 
have not done that.
    Mr. Hudson. We will do a second round if the committee so 
chooses or so desires.
    Now I recognize the gentleman from California, Mr. 
Swalwell, for any questions he may have.
    Mr. Swalwell. Thank you, Mr. Chairman, and welcome to our 
witnesses.
    Administrator Pistole, I first want to thank you for 
engaging with me and Members on this committee during the 
knives on planes discussion. I really appreciate you working 
with the ASAC on that and continuing to engage with me. I 
appreciate the policy revisions that were made.
    I also want to express to you, administrator, how sorry, 
deeply sorry I am about the shooting at LAX. I want to pass 
along my condolences to the family of Officer Hernandez. I am 
the son of a retired police officer and the brother of a police 
officer who serves today. I want to wish well the 
transportation security officers who were shot, James Speer and 
Tony Grigsby, as well as passenger, Brian Ludmer.
    You know, as far as Federal workers go, TSOs in the Federal 
workforce, the transportation security officers, they are some 
of the newest employees we have in our Federal agencies. You 
know, they have been around now since right after September 11. 
But I think it is easy to forget that they are relatively new 
compared to how many Federal employees we have, and they are 
still learning their job and growing in their job, and we 
shouldn't take that for granted, and they are among the last 
lines of defense between a person who wishes to do harm and 
passengers and crew on an airplane.
    In many ways, as Mr. Hernandez and the others who were 
shot, they are heroes, but too often unsung. Unfortunately, I 
think too many people, and I have seen this in this Congress, 
continually attack and denigrate the work at the TSA. Recently, 
in 2012, the Republican National Committee's platform called 
for de-Federalizing the TSA and privatizing the TSA.
    I think we need to all just take a step back in our 
comments about the TSA and just attacks in general on the 
Federal workforce. I mean, these people are doing a public 
service. They are doing it oftentimes at much less money than 
they would receive in the private sector. Again, they are the 
last line of defense. I don't think our comments are well-
served and I think they can create a culture of hate toward 
people who are working in very stressful environments dealing 
with the passengers, myself included, who are not always on our 
best behavior as we are rushed trying to make our plane. It is 
a very difficult job, and I hope we can all just be mindful of 
that job.
    In light of that, administrator, I do want to talk about--
Ranking Member Thompson had some concerns with his questioning 
about radio communication capability between TSOs and law 
enforcement personnel, particularly armed law enforcement who 
are at the airports. So my question to clarify: At LAX and most 
of the airports across the country, is there radio 
communication that can take place between a TSO and law 
enforcement personnel, or is it only phone communication that 
can take place?
    Mr. Pistole. Yes, and thank you for your kind comments, 
Congressman.
    So it depends, airport-by-airport. So out of the 450 
airports, I don't have the figures here in front of me, which I 
will get, most of the communication would be between the TSA 
employees and a coordination center, which may be jointly 
staffed, depending on which airport, between TSA and airport 
police, or just TSA, the coordination center. I am not aware of 
ones where it is a direct link into a radio contact into the 
police, but I am sure there are some. I am just not aware of 
those off-hand.
    Mr. Swalwell. Do you think that could have helped with what 
happened at LAX and for future scenarios that you could 
envision or training that you have gone through, would it be 
better if we had a radio system where police and TSOs were on 
the same channel?
    Mr. Pistole. Well, I think that is clearly one of the 
things that we are looking at as part of our review, but just 
for awareness, for example, if you are at LAX and you call 9-1-
1, that doesn't go to the Los Angeles Police.
    Mr. Swalwell. CHP, right?
    Mr. Pistole. Yeah. So that goes elsewhere. You have to dial 

7-9-1-1 to get into the airport police. So there are some 
quirks in there that go, you know, beyond TSA and just law 
enforcement, but it really does come down to airport-by-
airport.
    Mr. Swalwell. Okay, thank you.
    Also, as far as behavioral or behavior detection, what have 
you learned from what happened at LAX and, you know, the 
behavior detection officers? Is there anything that they could 
have detected? I know you are still investigating, but, you 
know, clearly, this was a situation that happened and unfolded 
rapidly and a behavior detection officer was one of the 
officers that was shot. Is this something that you believe 
under prime circumstances the behavior detection team could 
have detected this person earlier?
    Mr. Hudson. The gentleman's time has expired, but I will 
allow the witness to answer.
    Mr. Swalwell. Thank you.
    Mr. Pistole. Thank you, Chairman.
    Again, possibly, given the configuration of terminal 3 at 
LAX with the document checker on the lower level and then 
escalators up to where the checkpoint is, there were actually 
just two TSA employees there, and so there were no BDOs that 
would observe. But the shooter, again, for the time he was 
dropped off at the curb to the time he walked literally, I 
walked this on Tuesday, walked a few steps, and then took out 
his assault rifle and opened fire, I mean, it is just a matter 
of seconds. It is possible that a BDO, if the officer would 
have seen something, you can actually see on the video an 
airport employee pointing at the gunman. You don't see the 
gunman in the video, but you see this person pointing, and then 
the shots are fired. So somebody could have, and somebody did, 
but given that configuration there were no BDOs present at that 
actual point.
    Mr. Swalwell. Great, thank you. I yield back my time.
    Thank you, Mr. Chairman, for the extra time.
    Mr. Hudson. Thank the gentleman.
    At this point the Chairman will recognize the gentleman 
from New Jersey, Mr. Payne, for any questions he may have.
    Mr. Payne. Thank you, Mr. Chairman.
    I first would like to acknowledge our condolences to your 
organization for its loss.
    Mr. Pistole. Thank you.
    Mr. Payne. Just want to bring light to a few things. I am 
sure being last I am possibly going to ask something that has 
already been asked, but I feel it is important. You know, the 
GAO report released yesterday cites an incident where a BDO 
manager at Newark Liberty International Airport, which is my 
home airport, gave inappropriate direction to behavior 
detection officers regarding profiling of passengers and made 
racial comments. It is my understanding that that BDO has been 
fired.
    It has also been brought to my attention that the BDOs have 
been promoted based on the number of referrals they have made, 
which have encouraged BDOs to racially profile to increase 
their referral rate.
    So what degree of confidence do you have that other BDO 
managers aren't encouraging or directing racial profiling 
through the SPOT program?
    Mr. Pistole. Well, thank you, Congressman Payne. So our 
clear instruction, and one of the lessons learned from these 
multiple reviews that have been done is we could have done a 
better job in terms of training and retraining and ensuring 
that there is no notion of profiling taking place. In fact, as 
part of our retraining that we have done since these reports 
have been done, is to require every BDO to take a pledge 
against profiling, which I have and can share with the 
subcommittee, and every BDO other than those who are out on 
extended leave or something have taken that pledge to ensure 
that they understand that profiling has absolutely no place in 
a BDO's work. It is not good law enforcement. It is not good 
security work from our perspective. It is unconstitutional. So 
anybody who is found to be profiling, will be investigated and 
dealt with appropriately.
    So we have put that message out very clearly. I can talk 
about the Newark situation in detail if you would like. But 
that being said, any time there is an allegation, in fact, that 
is what happened in Boston last year, the allegations came into 
us. I saw them. I take them very seriously. So I asked the 
Inspector General to conduct the investigation rather than TSA 
because this was National news. It was in the New York Times.
    So they conducted the review, and obviously you heard from 
Mr. Edwards in terms of their findings, there was not 
discrimination that was found or profiling. But we take it very 
seriously, and I know from my background that that is just 
unacceptable, and so any violation of somebody's civil rights 
or civil liberties is a significant, significant issue for us 
and just undermines the entire program. So that is why we don't 
tolerate it.
    Mr. Payne. I hope it is not a culture that has been 
created. Because let me say, I don't know if it is the right 
word, but I am sensitive to this issue. Being from a State 
where my uncle is the author of the racial profiling bill in 
New Jersey, we have had many instances where this problem is 
just out of proportion. So to see this here, it harkens back to 
issues that we have been dealing with in New Jersey, and now 
this at Newark Airport is troubling.
    You know, to Mr. Horsford's point, you know, that there 
needs to be maybe more analysis of whether or not this is going 
on, what steps has TSA taken to begin collecting racial 
information on passengers in order to be able to measure 
quantitatively whether racial profiling has occurred?
    Mr. Pistole. Yeah, that has been a challenging issue for us 
because we in collecting the information, does it then promote 
either the actual or the appearance of profiling? So we have 
been doing a feasibility study to assess that. Of course, when 
an individual is referred to law enforcement, they collect that 
data, but then that is not necessarily passed back to us. So 
that is part of our challenge. Is it the appearance of 
somebody? Of course, that it is an imperfect art of defining 
somebody. So those are the challenges that we are working 
through, but I am sensitive to the point you are making.
    Mr. Payne. Yeah. You know, the point of BDOs being promoted 
based on the number of referrals----
    Mr. Pistole. Yes, that is not----
    Mr. Payne. You know, growing up I went to school in a town 
where the population was changing and people were resistant to 
it. So they had someone that worked for the board of education 
that would go to homes to make sure people actually lived 
there. What subsequently I found out years later is that for 
every person he could prove didn't live there, he was paid. So, 
you know, these referrals kind of harken to that type of thing. 
So I am very concerned about that.
    Mr. Hudson. The gentleman's time has expired.
    Mr. Pistole. Chairman, may I respond to that?
    Mr. Hudson. Sure.
    Mr. Pistole. From the standpoint of, I think there was a 
perception among some BDOs, and I believe the inspector general 
found this in their review in Boston, that BDOs may be promoted 
more readily if they made a higher number of referrals. That is 
not the case, but there was a perception. So we have gone back 
to retrain and clarify that that is not the case. So we don't 
want people referring, we don't want BDOs referring because 
they think they will be more readily promoted.
    Mr. Hudson. Thank you for that answer.
    At this point, we will start a second round. I have just 
got one question. I am not planning to take my entire 5 
minutes, and maybe we can get through this round pretty 
quickly. But I appreciate the indulgence of the witnesses here.
    My question is for both Mr. Gerstein and Mr. Lord. In your 
testimony you said that there were several foreign countries 
who have implemented this type of behavioral detection program. 
In fact, I visited Ben Gurion Airport myself and have seen 
first-hand how they implement that program. So my question to 
both of you, or anyone who wants to respond, is there a body of 
scientific studies that support the effectiveness of some of 
these foreign programs? If so, how can this information be 
better leveraged and used as we examine what we do here?
    Mr. Lord. I guess I can start. You typically hear the 
Israelis operate a similar system. I think it is really 
important to note that there are as many dissimilarities as 
similarities in their system. First, you are allowed to 
racially profile under their system. As Mr. Pistole explained 
that is prohibited under our system. They also, their system is 
much smaller in scale. You know, one major international hub, 
number of aircraft is less than 100 in their national fleet. 
They essentially will take the time and interview every single 
passenger getting on an aircraft. We can't do it under our 
system at 1.8 million passengers a day. The entire system would 
come screeching to a halt. So I think you have to be really 
careful about drawing parallel with the Israelis.
    Also in our report, we did cite another country report. We 
are not allowed to disclose the name of the country, it is 
considered sensitive security information. But the phase one of 
the study found some merit in the use of behavior indicators, 
but they did another follow-up study, same country, same 
process, phase two found that there was no, you know, they 
changed the conclusion and concluded it was not a really 
effective use of their resources. So there are some other 
country studies out there, but I think you have to be really 
careful about citing them as evidence to support the use of 
behavior detection.
    Mr. Gerstein. I would agree with Mr. Lord with respect to 
Israel. I think, you know, they rely on it heavily but it is a 
difference in scale. It is certainly not something that we 
would want to engage in here.
    On the other hand, when I went to Australia, I thought that 
their program is very robust. We walked what I call the last 
200 meters, if you will, from the time somebody goes through 
their passport, and then goes through and gets their luggage 
and is finally checked out. They have a very robust system.
    The one thing that I did not see in comparing it to ours 
was the same sort of checklist scoring of the indicators. But, 
you know, they rely on this heavily, and they think it works.
    I would also like to say that we have evidence that many of 
the indicators that we have within the TSA methodology on SPOT 
have been validated through Department of Defense work. For 
example, person-borne IEDs. So they have looked at it and they 
came up in one of the studies that 24 indicators that have been 
identified in TSA overlap with what was in this Department of 
Defense-sponsored study.
    You know, likewise, there was a recent workshop--well, 
somewhat recent, 2011--with Federal, local law enforcement, 
DOD, private sector, in which they found 32 of the indicators 
were overlapping. So there is work on-going to try to better 
understand the questions that surround behavioral science and 
to try to get better at it.
    You know, the one thing about this program I think is 
really interesting, though, is that, you know, most of what we 
do when we talk screening is based on capabilities. In other 
words, can I X-ray it and determine is there an explosive? Or 
do I put something through a magnetometer or one of the AIT 
machines?
    SPOT is really the premier program for trying to get at 
this question of behavioral issues and can you identify people 
who are in stressful situations and, therefore, should be 
brought aside for secondary screening? I would add that that is 
a very low-risk outcome to be secondarily screened. Thank you.
    Mr. Hudson. I appreciate that.
    At this point, I will recognize the gentleman from 
California, Mr. Swalwell for a second round.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Administrator Pistole, yesterday the committee received a 
letter from a behavior detection officer--actually officers--at 
Boston's Logan Airport expressing concerns about retaliation 
for exposing profiling, to follow up on the gentleman from New 
Jersey's question. Can you assure our committee that employees 
who come forward and report any wrongdoing or the suspicion of 
wrongdoing in the behavior detection program, whether it is 
profiling or otherwise, that they would be protected against 
retaliation?
    Mr. Pistole. Absolutely.
    Mr. Swalwell. Great, thank you.
    I yield back.
    Mr. Horsford. Would the gentleman yield?
    Mr. Swalwell. I will yield, if it is okay, to the gentleman 
from Nevada.
    Mr. Hudson. Without objection.
    Mr. Horsford. Thank you. I will defer to the gentlelady. I 
just had some additional questions, but----
    Mr. Hudson. Well, I am happy to get to the gentleman in 
order. If the gentlelady is next then I am happy to recognize 
you for 5 minutes----
    Mr. Horsford. That is fine.
    Mr. Hudson [continuing]. If that is appropriate.
    Okay. At this point then I will recognize the gentlelady 
from Texas, Ms. Jackson Lee, for a second round.
    Ms. Jackson Lee. Thank you. I thank the gentleman from 
Nevada for his courtesy.
    I wanted to pursue the line of questioning that goes to 
whether we keep or whether we do not keep the SPOT program. So 
let me first go to this issue, Mr. Lord, that you indicated in 
your past report, though I will not hold that as the final 
answer, that you saw no racial profiling--but we have just 
heard of concerns from Boston--but you saw the idea of attire.
    So I guess, Mr. Lord and Mr. Edwards, what do you mean by 
that, and how is that not effectively racial profiling if 
someone is wearing a head dress, someone is wearing braids, 
someone is wearing their hair natural, how does that not fall 
into the category of profiling?
    Mr. Edwards. Thank you, ma'am. We looked at the Logan 
International Airport in our report investigation. Mr. Pistole 
had asked me to look into it. We interviewed the BDOs, we 
interviewed the BDO supervisors, we also interviewed some 
passengers, not to go on a fishing expedition, but we 
interviewed some passengers as well. What we found was there 
was not racial profiling, but in the interviews some of the 
BDOs alleged a practice of appearance profiling.
    Ms. Jackson Lee. Right. So my question is: You found that. 
What does that mean, and how do we fix that or how do we 
improve that? Because it is certainly, I think, very much 
connected.
    Mr. Edwards. So in general terms, appearance profiling, you 
know, it is identifying individuals exhibiting certain types of 
characteristics that may be different from the general 
population. I can come in a non-public setting and explain to 
you my understanding of what this appearance profiling is. I am 
just uncomfortable elaborating that at this public setting.
    Ms. Jackson Lee. All right.
    Mr. Lord, did you find any form of discriminatory 
assessments being made by BDOs?
    Mr. Lord. Well, first of all, we started our review, we 
always coordinate with the IG. Since they were looking at these 
racial profiling allegations in Boston, we deferred to them on 
this issue. But as part of our work, since we had already 
started the work, we did interview 25 behavior detection 
officers across four airports; 20 of the 25 said they had not 
personally witnessed any racial profiling, but 5 of them 
indicated there was, in their view, based on a personal 
observation, some profiling. Again, that is a very small number 
over 3,000 behavior detection officers.
    We tried to substantiate it looking at the data, since, you 
know, that is a hallmark of how we do our work, and at the time 
TSA didn't have the data systems that would allow us to 
substantiate that, but as Mr. Pistole just noted, they have a 
pilot, a feasibility study under way.
    Ms. Jackson Lee. Thank you.
    Mr. Lord. They are going to think about better ways to do 
that.
    Ms. Jackson Lee. Thank you so very much.
    Mr. Pistole, let me conclude with you, please. There have 
been several, I think, constructive points being made at this 
hearing. Would you go back and look at this program, this 
service as it may be better refined through streamlining, 
through looking at the at-risk concept that I think you adhere 
to, through the idea of--I even like the idea, because of the 
LAX tragedy, of expanding in the outer areas in an area 
surrounding the perimeters, so as passengers enter, it might be 
an appropriate executive fix. Are you willing to go back and 
look at this program constructively?
    Mr. Pistole. Yes, Congresswoman. That is part of our 
review. Clearly we want to make sure we are deploying BDOs and 
the entirety of the workforce in the highest-risk, most return-
on-investment places, times, and situations. So that is clearly 
what we are doing.
    As part of the BDO program we are looking at refining the 
number of indicators. Is it too complicated, is it confusing, 
how can we streamline, to your point, how can we simplify the 
whole process to give the greatest return on investment?
    Ms. Jackson Lee. Mr. Chairman, if I may just put a question 
on the record and ask you, let me thank you and the Ranking 
Member for this hearing. I would offer a thought based upon Mr. 
Edwards' comment and some more pointed questions that I would 
like to ask that we have a Classified briefing on the BDO 
pursuant to or in light of LAX and a lot of our concerns about 
the exterior. Meaning, when I say the exterior, there are the 
perimeters, people driving up, that is one issue, but I am 
talking about the lead-up to the TSA area, the ticketing area, 
people walking up, which is where this gentleman was. So he had 
to walk somewhere, and the question was: Was there some officer 
other than the law enforcement who deals with the actual 
activity of violence or activity, but someone watching that 
area?
    So, again, no determinations here, no commitments here. 
Prefer not in open setting. But I would like to have the 
opportunity, if we could, to have that discussion.
    Mr. Hudson. I would be happy to work with you on that.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Thank you very much. Again, thank you for your service. 
Thank the gentleman from Nevada as well.
    Mr. Hudson. At this point, I will recognize the gentleman 
from Nevada, Mr. Horsford, for 5 minutes.
    Mr. Horsford. Thank you, Mr. Chairman.
    I would like to ask the administrator if he could go ahead 
and answer the question about the TSA not being able to have a 
preapproved vendor list, what the challenges are to 
implementing the process.
    Mr. Pistole. We looked at doing a qualified products list 
to say we would recommend or we would accept if you bought 
these particular pieces of technology from these manufacturers. 
We are trying to be open to all vendors, all providers, so it 
is not like we are preselecting one and saying you must go with 
this one. So McCarran may have contact with a vendor that has 
one solution, LAX may have contacts with another vendor with a 
different solution. So we are tried not to be prescriptive in 
that regard; tried to be completely open to whatever vendors 
and solutions that airports would provide.
    So what we have done is provide a template to say, here are 
some recommended solutions, and then if you work within those 
parameters just make sure you coordinate that with your local 
Federal security director, these more likely than not would be 
approved; as opposed to saying from a qualified product list, 
here is the exact product you have to use.
    Mr. Horsford. So I would like to ask if I can follow up 
with you and someone from your office in that regard to make 
sure that that process is clear to the local airport----
    Mr. Pistole. Sure.
    Mr. Horsford [continuing]. Directors? Thank you.
    Mr. Pistole. Yep.
    Mr. Horsford. Also, administrator, in fiscal year 2014 TSA 
reduced the number of airports where the SPOT program operates 
from 176 airports down to 121, a reduction of 55 airports. So 
the agency did this despite your own analysis that said you 
actually needed to increase the number of behavior detection 
officers. So first my question: Are the airports where the SPOT 
program has been removed less secure today because they don't 
have the BDO? If not, why not?
    Mr. Pistole. Yes. So this goes back to actually a GAO, the 
2010 report, that recommended that we assess our deployment of 
BDOs across the risk landscape--my words. So under a risk-based 
security approach, what we have done is looked at those 175 and 
made a judgment that our return on investment in terms of being 
able to see and observe the greatest number of passengers in 
the highest-risk airports would be better-suited by reducing 
the footprint from across the country, basically the peanut 
butter approach, just spreading resources equally around the 
country, to those higher-risk and higher-passenger airports.
    So that is what we have done under this Risk-Based Security 
initiative to say we will be in generally the 121 busiest 
airports around the country, so we will be observing over 80, 
maybe as high as 90 percent of all passengers so we get a 
better return on investment.
    In an ideal world, yes, I would have BDOs at virtually 
every airport. So there is some argument to be made that those 
airports have less security. But we are not in a time, as you 
know, of unlimited budget, so I have to make a risk-based 
decision based on our budget, and so that is why we have made 
that to coincide with the GAO recommendation.
    Mr. Horsford. So on that exit lane issue which I raised 
earlier with you, and your point was you guys can't afford it 
so you are going to shift that burden to local airports, local 
airports have budget constraints, too. So, again, all I would 
ask is that you not make these decisions in a vacuum, that you 
involve the local stakeholders so that they can help you inform 
how to best maintain security. We can't make the Federal budget 
problems local and State problems. I was a former State senator 
before coming to Congress. So shifting the burden down isn't a 
solution either. So I would just ask that you continue to get 
their input.
    Can I just ask one final question, maybe Mr. Edwards or Mr. 
Lord? Is there any data of those passengers who have been 
screened of their race, ethnicity, religion? Is any information 
like that captured?
    Mr. Lord. Yeah, there is some, but it wasn't systemic or 
sufficient for us to do a good analysis. For example, when they 
make a referral that ultimately goes to a law enforcement 
officer, the law enforcement community does in some cases keep 
good demographic data, but it really varies by airport. So it 
is spotty, but there is some data out there.
    Mr. Horsford. Okay. That is something we need to follow up 
on, because it is done more effectively in law enforcement 
outside of airport, and if we are going to continue to have 
these type of profiling strategies, we need to make sure that 
it is not disproportionately impacting, you know, based on 
race, ethnicity, and religion. You don't know that unless you 
collect the data.
    Mr. Lord. Yeah. To TSA's credit, they are very sensitive to 
that, and they already have a project under way to gather 
better data to help answer that question.
    Mr. Hudson. I thank the gentleman. I thank the witnesses 
for their testimony to Members' questions today. Members of the 
subcommittee may have some additional questions that they want 
to submit in writing. We ask the witnesses that you do respond 
to these.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
